App. 1
Michigan Supreme Court
Lansing, Michigan
OPINION Chief Justice:
Justices:
Bridget M. McCormack Stephen J. Markman
Brian K. Zahra
Chief Justice Pro Tem: Richard H. Bernstein
David F. Viviano
Elizabeth T. Clement
Megan K. Cavanagh
FILED July 29, 2019
STATE OF MICHIGAN
SUPREME COURT
PEOPLE OF THE
STATE OF MICHIGAN,
Plaintiff-Appellee,
No. 152934

v
ERIC LAMONTEE BECK,
Defendant-Appellant.
BEFORE THE ENTIRE BENCH
MCCORMACK, C.J.

In this case, we consider whether a sentencing
judge can sentence a defendant for a crime of which
the defendant was acquitted.
That the question seems odd foreshadows its answer. But to explain the question first: Once a jury acquits a defendant of a given crime, may the judge,

App. 2
notwithstanding that acquittal, take the same alleged
crime into consideration when sentencing the defendant for another crime of which the defendant was
convicted? Such a possibility presents itself when a
defendant is charged with multiple crimes. The jury
speaks, convicting on some charges and acquitting on
others. At sentencing for the former, a judge might seek
to increase the defendant’s sentence (under the facts of
this case, severely increase, though we consider the
question in principle) because the judge believes that
the defendant really committed one or more of the
crimes on which the jury acquitted.
Probably committed, that is: A judge in such circumstances might reason that although the jury acquitted on some charges, the jury acquitted because
the state failed to prove guilt on those charges beyond
a reasonable doubt. But the jury might have thought it
was somewhat likely the defendant committed them.
Or the judge, presiding over the trial, might reach that
conclusion. And so during sentencing, when a judge
may consider the defendant’s uncharged bad acts under a lower standard—a mere preponderance of the evidence—the judge might impose a sentence reflecting
both the crimes on which the jury convicted, and also
those on which the jury acquitted but which the judge
finds the defendant more likely than not did anyway.
Is that permissible?
We hold that the answer is no. Once acquitted of a
given crime, it violates due process to sentence the defendant as if he committed that very same crime.

App. 3
Because the trial court in this case relied at least
in part on acquitted conduct1 when imposing sentence
for the defendant’s conviction of being a felon in possession of a firearm, we reverse the Court of Appeals,
vacate that sentence, and remand the case to the Saginaw Circuit Court for resentencing.2
I.

FACTS AND PROCEDURAL HISTORY

The defendant was jury-convicted as a fourthoffense habitual offender of being a felon in possession
of a firearm (felon-in-possession) and carrying a firearm during the commission of a felony (felony-firearm),
second offense, but acquitted of open murder, carrying
a firearm with unlawful intent, and two additional
counts of felony-firearm attendant to those charges.
The applicable guidelines range for the felon-inpossession conviction was 22 to 76 months, but the
court imposed a sentence of 240 to 400 months (20 to
331/3 years), to run consecutively to the mandatory
1

A brief aside on vocabulary: The dissent criticizes the term
“acquitted conduct” as misleading, but that term comes directly
from United Supreme Court precedent. See, e.g., Watts v United
States, 519 US 148, 153-154; 117 S Ct 633; 136 L Ed 2d 554 (1997);
Booker v United States, 543 US 220, 240; 125 S Ct 738; 160 L Ed
2d 621 (2005).
2
Defendant’s request that the resentencing occur before a
different judge is denied because we are not persuaded that the
standards set forth in People v Hill, 221 Mich App 391, 398; 561
NW2d 862 (1997), require reassigning the case to a different
judge. See People v Hicks, 485 Mich 1060 (2010) (applying the Hill
standards). In all other respects, the defendant’s application for
leave to appeal is denied because we are not persuaded that the
remaining questions presented should be reviewed by this Court.

App. 4
five-year term for second-offense felony-firearm. The
court explained its reasons for the sentence imposed
as, among other things, its finding by a preponderance
of the evidence that the defendant committed the murder of which the jury acquitted him. The court stated
(emphasis added):
With respect to that charge the Court
does find that there are compelling reasons to
go over the guidelines. The Court believes that
. . . to sentence within the guidelines would
not be proportionate to the seriousness of the
defendant’s conduct or the seriousness of his
criminal history. And for that reason the
Court is going to go over the guidelines in setting a sentence that is, in fact, proportionate
to those things.
In addition to that, the maximum—when
you reach the maximum on the guidelines in
this case it’s at 75 points, this is way over that
at 125 points. That is another reason the
Court may, and will go over the guidelines in
this case.
This gentleman has a prior murder conviction on his record that he pled guilty to for
which he served 13 years in prison. That was
in 1991. He was discharged from parole in
2007. In 2010, only three years later, he pled
no contest to a firearms, possession by a felon
for which he received 252 days in jail. And
then this charge, offense date was June 11,
2013 where, again, he is in possession of a firearm at a murder scene.

App. 5
The testimony in this case by one of the
witnesses who could not identify him was that
a man approached the victim with a gun. She
saw a muzzle flash and the victim fell to the
ground and the perpetrator ran off.
The other witness, who was not alive at
the time of the trial, and was barely alive at
the time of the prelim, identified this gentleman as the person who approached the victim
with the gun. Gave a positive identification.
Indicated she saw the gun. Then her story wavered as far as whether she saw the shooting
or whether she was in her kitchen at the time
of the shooting. I think the inconsistency, and
where she was at the time of the shooting, as
well as her not being in court, affected the
jury’s verdict. They could not find, beyond a
reasonable doubt, that the defendant committed the homicide. But the Court certainly finds
that there is a preponderance of the evidence
that he did.
And I am not substituting my opinion for
their’s [sic]. I am just bound by a different
standard in this matter. And that is the reason for the Court’s finding that, in fact, this
gentleman, in my opinion, did kill the victim
for no reason other than jealousy. But, at the
very minimum, he was the only person seen
at the scene with a weapon seconds prior. Two
people hearing a shot, and another lady seeing a shoot[ing] by someone she couldn’t identify. And, certainly, provided the weapon. But
in the Court’s opinion, he didn’t just provide it,
he actually was the person who perpetrated the

App. 6
killing. And I do find by a preponderance of the
evidence that that has been shown. And I do
consider that in going over the guidelines in
this matter.
So for the fact that the guidelines don’t
properly—are so far out of scoring of 125,
where 75 is the highest—but, more importantly,
the fact that there was a death. And the Court
finds by a preponderance of the evidence that
this gentleman did shoot the victim.
The defendant appealed and challenged his convictions and sentences on multiple grounds, including
that the trial court erred by increasing his sentence on
the basis of conduct of which he had been acquitted.
The Court of Appeals issued an unpublished opinion
remanding for further sentencing proceedings (a Crosby
remand)3 under People v Steanhouse, 313 Mich App 1;
880 NW2d 297 (2015), aff ’d in part and rev’d in part by
People v Steanhouse, 500 Mich 453; 902 NW2d 327
(2017). People v Beck, unpublished per curiam opinion
of the Court of Appeals, issued November 17, 2015
(Docket No. 321806). The defendant sought leave to appeal in this Court, which first held his application in
3

A Crosby remand is the remedy this Court adopted in People v Lockridge, 498 Mich 358; 870 NW2d 502 (2015), for the Sixth
Amendment violation that would occur when judicial fact-finding
was used to score the mandatory sentencing guidelines. It involves a remand to the trial court for a determination of whether
that court would have imposed a materially different sentence if
its discretion had not been constrained by the guidelines. Id. at
399. This Court adopted the procedure from United States v
Crosby, 397 F3d 103 (CA 2, 2005). Lockridge, 498 Mich at 395398.

App. 7
abeyance for our decision in Steanhouse.4 People v
Beck, 884 NW2d 283 (Mich, 2016). After issuing our decision in Steanhouse, we ordered oral argument on the
defendant’s application and directed that it be heard
at the same session as oral argument on the prosecution’s application in People v Dixon-Bey, 501 Mich
1066 (2018). People v Beck, 501 Mich 1065, 1065-1066
(2018).5

4

Among other issues, the defendant challenged the reasonableness of his sentence, and this Court held in Steanhouse that
the proper inquiry when reviewing a sentence for reasonableness is whether the trial court abused its discretion by violating the “principle of proportionality”
set forth in People v Milbourn, 435 Mich 630, 636; 461
NW2d 1 (1990), “which requires sentences imposed by
the trial court to be proportionate to the seriousness of
the circumstances surrounding the offense and the offender.” [Steanhouse, 500 Mich at 459-460.]
5
Our order asking for oral argument on the application directed the parties to brief the following issues:
(1) the appropriate basis for distinguishing between
permissible trial court consideration of acquitted conduct, see People v Ewing (After Remand), 435 Mich 443,
451-452 [458 NW2d 880] (1990) (opinion by BRICKLEY,
J.); id. at 473 (opinion by BOYLE, J.); see also United
States v Watts, 519 US 148 [117 S Ct 633; 136 L Ed 2d
554] (1997), and an impermissible “independent finding of defendant’s guilt” by a trial court on an acquitted
charge, see People v Grimmett, 388 Mich 590, 608 [202
NW2d 778] (1972), overruled on other grounds by People v White, 390 Mich 245, 258 (1973); see also People v
Fortson, 202 Mich App 13, 21 [507 NW2d 763] (1993);
and (2) whether the trial court abused its discretion by
departing from the guidelines range, where the jury
acquitted the defendant of murder, but the court departed based on its finding by a preponderance of the

App. 8
II.
A.

LEGAL BACKGROUND

CONSTITUTIONAL AMENDMENTS

The defendant argues that the trial court’s reliance on conduct of which he was acquitted to increase
his sentence violates his constitutional rights under
the Sixth and Fourteenth Amendments of the United
States Constitution, as interpreted by the United
States Supreme Court.6 The Sixth Amendment of the
United States Constitution provides in part:
In all criminal prosecutions, the accused
shall enjoy the right to a speedy and public
trial, by an impartial jury of the State and
district wherein the crime shall have been
committed, which district shall have been previously ascertained by law, and to be informed
of the nature and cause of the accusation.
The Fourteenth Amendment of the United States
Constitution provides in relevant part:
No State shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or
property, without due process of law; nor deny
evidence that the defendant had perpetrated the killing. [Beck, 501 Mich at 1065.]
As in Dixon-Bey, we also invited the Prosecuting Attorneys Association of Michigan and the Criminal Defense Attorneys of Michigan to file amicus curiae briefs.
6
The defendant has not independently challenged the trial
court’s reliance on acquitted conduct under the Michigan Constitution, so we do not address that issue here.

App. 9
to any person within its jurisdiction the equal
protection of the laws.
B.

CASELAW INTERPRETING THOSE RIGHTS
1.

UNITED STATES SUPREME COURT

As a general matter, the Fourteenth Amendment
incorporates the Sixth Amendment right to a jury trial
in state prosecutions. Duncan v Louisiana, 391 US 145,
149; 88 S Ct 1444; 20 L Ed 2d 491 (1968). And the Fourteenth Amendment right to due process includes “the
presumption of innocence—that bedrock ‘axiomatic
and elementary’ principle whose ‘enforcement lies at
the foundation of the administration of our criminal
law.’ ” In re Winship, 397 US 358, 363; 90 S Ct 1068; 25
L Ed 2d 368 (1970), quoting Coffin v United States, 156
US 432, 453; 15 S Ct 394; 39 L Ed 481 (1895).
The United States Supreme Court has issued a
number of decisions potentially relevant to the issue
presented here—whether a sentencing judge may rely
on acquitted conduct when sentencing a defendant
without violating due process or the right to a jury
trial. In the first, McMillan v Pennsylvania, 477 US 79;
106 S Ct 2411; 91 L Ed 2d 67 (1986), the Court did not
specifically address acquitted conduct. Rather, it considered whether a Pennsylvania statute that allowed
sentencing courts to find by a preponderance of the evidence that the person “visibly possessed a firearm”
during the commission of the offense, resulting in a
five-year mandatory minimum sentence, was constitutional. Id. at 81. That is, the statute permitted the

App. 10
court to find by a preponderance a fact the jury had not
been asked to decide. The Court held that the statute
did not violate the Due Process Clause of the Fourteenth Amendment or the jury-trial guarantee of the
Sixth Amendment. Id. at 91-93. It explained that it
saw no reason to “constitutionaliz[e] burdens of proof
at sentencing.” Id. at 92.
Next came United States v Watts, 519 US 148; 117
S Ct 633; 136 L Ed 2d 554 (1997). Watts did address a
sentencing court’s reliance on acquitted conduct, but in
the context of a claim that the use of such conduct violated the Double Jeopardy Clause of the Fifth Amendment. Citing McMillan, the Court held that “a jury’s
verdict of acquittal does not prevent the sentencing
court from considering conduct underlying the acquitted charge, so long as that conduct has been proved by
a preponderance of the evidence.” Id. at 157. The Court
did not address the Fourteenth Amendment right to
due process.
Around 1999, the United States Supreme Court’s
jurisprudence analyzing a defendant’s due-process and
Sixth Amendment rights underwent a sea change. In
Jones v United States, 526 US 227, 232; 119 S Ct 1215;
143 L Ed 2d 311 (1999), and then Apprendi v United
States, 530 US 466; 120 S Ct 2348; 147 L Ed 2d 435
(2000), the Court established the following constitutional rule:7 “[o]ther than the fact of a prior conviction,
7

Jones was decided on statutory-construction grounds, but
the next term the Apprendi Court concluded that its rule was constitutionally mandated.

App. 11
any fact that increases the penalty for a crime beyond
the prescribed statutory maximum must be submitted
to a jury, and proved beyond a reasonable doubt.” Apprendi, 530 US at 490. The Court further noted that its
rule was grounded in the “Due Process Clause of the
Fifth Amendment and the notice and jury trial guarantees of the Sixth Amendment” and that “[t]he Fourteenth Amendment commands the same answer in
this case involving a state statute.” Apprendi, 530 US
at 476. The “Apprendi revolution,” as it has been called,
has wrought significant changes in sentencing practices in state and federal courts. See generally Booker
v United States, 543 US 220; 125 S Ct 738; 160 L Ed 2d
621 (2005) (relying on Apprendi’s rule to strike down
the mandatory federal sentencing guidelines and
make them advisory only); Lockridge, 498 Mich at 399
(doing the same to Michigan’s mandatory sentencing
guidelines).
2.

MICHIGAN SUPREME COURT

This Court has also addressed the use of acquitted
conduct, albeit in a case with a fractured set of opinions
in which it is not entirely clear what rule of law commanded a majority. In People v Ewing (After Remand),
435 Mich 443; 458 NW2d 880 (1990), there were three
substantive opinions:8 Justice BRICKLEY’s lead opinion,
Justice ARCHER’s opinion concurring in part and dissenting in part, and Justice BOYLE’s concurring opinion
8

Justice CAVANAGH wrote a brief two-sentence concurring
opinion that was silent on reasoning (joined by Justice LEVIN).

App. 12
(joined by Justices RILEY and GRIFFIN) that dissented
in result. Justice BOYLE’s opinion blessed the practice
of sentencing courts relying on acquitted conduct as
long as it was proven by a preponderance of the evidence. Id. at 473 (opinion by BOYLE, J.). Justice BOYLE
relied primarily on McMillan and Dowling v United
States, 493 US 342, 349; 110 S Ct 668; 107 L Ed 2d 708
(1990), to support that conclusion. Ewing (After Remand), 435 Mich at 472-473 & n 15.
Justice BRICKLEY’s lead opinion is harder to parse.
He agreed with Justice BOYLE that “the mere fact of a
prior acquittal of charges whose underlying facts are
properly made known to the trial judge is not, without
more, sufficient reason to preclude the judge from taking those facts into account at sentencing.” Id. at 451
(opinion by BRICKLEY, J.). Yet his opinion proceeds to
say that a judge’s right to rely on such conduct might
be limited under some circumstances not before the
Court. Id. at 453-455. Among these caveats is the
statement that “we are not presented with the issue
whether a defendant may be punished for a crime for
which no conviction was obtained; this is clearly unconstitutional.” Id. at 454. Finally, Justice BRICKLEY
agreed with the majority of justices who concluded a
remand to the trial court was required to “test the accuracy of these allegations regarding his conduct.” Id.
at 446. Thus, the binding rule of law from Ewing, if any,
is murky at best.9

9

Perhaps for this reason, this Court has never cited Ewing for
any binding legal rule. Notwithstanding these questions, much of

App. 13
III.

ANALYSIS

The question whether the Sixth and Fourteenth
Amendments permit the use of acquitted conduct to
increase a defendant’s sentence presents issues of constitutional interpretation, which we review de novo.
Lockridge, 498 Mich at 373. That means that we review
the issues independently, with no required deference
to the trial court. Millar v Constr Code Auth, 501 Mich
233, 237; 912 NW2d 521 (2018).
Federal courts that have addressed constitutional
challenges to the use of acquitted conduct at sentencing have relied almost entirely on McMillan and Watts
to reject both due-process and Sixth Amendment challenges. See, e.g., United States v Horne, 474 F3d 1004,
1006 (CA 7, 2007) (citing McMillan and Watts but not
identifying the constitutional right at issue); United
States v Dorcely, 372 US App DC 170, 175-177 (rejecting
both due-process and Sixth Amendment arguments,
the dissent’s argument relies on Ewing and treats it as binding
precedent. For reasons we have explained, we disagree with the
dissent’s reading of Ewing. Moreover, it is worth noting that Justice
BRICKLEY’s lead opinion provided the fourth vote for the disposition
in Ewing: a remand to the trial court for further development of the
sentencing record; Justice BOYLE and the justices joining her opinion would have simply reinstated the trial court’s sentence. Thus,
even assuming that Justice BRICKLEY agreed with the dissent in
some theoretical but undefined way about acquitted conduct, it is
difficult to see how that agreement could equate to a binding legal
rule given the difference in the votes as to the disposition of the
case. “[S]tatements concerning a principle of law not essential to
determination of the case are obiter dictum and lack the force of
an adjudication[.]” Roberts v Auto-Owners Ins Co, 422 Mich 594,
597-598; 374 NW2d 905 (1985).

App. 14
citing McMillan and Watts); United States v Faust, 456
F3d 1342, 1347-1348 (CA 11, 2006) (finding no Sixth
Amendment violation, discussing Watts); United States
v Boney, 298 US App DC 149, 160-161; 977 F2d 624
(1992) (due process) (collecting cases). We see several
problems with relying on those cases for due-process
purposes,10 and we address each of these concerns in
greater detail below.
A.

McMILLAN

There are at least three problems with relying on
McMillan as dispositive of claims that the use of acquitted conduct does not violate due process. First,
McMillan did not involve the use of acquitted conduct.
Second, its constitutional analysis rests on very shaky
footing in light of intervening caselaw. Third, even if it
is only McMillan’s Sixth Amendment analysis that has
10

We decline to reach the defendant’s argument that the use
of acquitted conduct violates the Sixth Amendment right to a jury
trial under Apprendi and its progeny. To our knowledge, although
some federal district courts have opined that the use of acquitted
conduct is unconstitutional and declined to consider it at sentencing, no appellate court in the country has accepted that argument.
See, e.g., United States v White, 551 F3d 381, 384-385 (CA 6, 2008)
(finding no Sixth Amendment problem with relying on acquitted
conduct when sentencing a defendant under the advisory guidelines system because “[b]y freeing a district court to impose a
non-guidelines sentence, Booker pulled out the thread that holds
White’s Sixth Amendment claim together”). But there has been
persistent criticism of that uniformity. See, e.g., White, 551 F3d
at 387 (Merritt, J., dissenting) (arguing that the defendant’s sentence, as increased on the basis of acquitted conduct, “represents
an as-applied violation of White’s Sixth Amendment rights” under
Apprendi).

App. 15
been abrogated, the intertwining nature of the Sixth
Amendment right to a jury trial and the Fourteenth
Amendment right to due process makes it all but impossible not to view its due-process analysis as significantly compromised.
First problem: McMillan did not involve a trial
court’s reliance on acquitted conduct, and so it never
addressed this unique question.11 Thus, its general
holding that it does not violate due process or the Sixth
Amendment for the trial court to find facts by a preponderance of the evidence when imposing sentence is
not obviously applicable.12 Acquitted conduct is, of
11

To the extent McMillan’s analysis is grounded in the general principle from Williams v New York, 337 US 241, 69 S Ct
1079; 93 L Ed 1337 (1949), that “[s]entencing courts have traditionally heard evidence and found facts without any prescribed
burden of proof at all,” McMillan, 477 US at 91, it is noteworthy
that Williams itself limited the breadth of its holding by asserting
that “[w]hat we have said is not to be accepted as a holding that
the sentencing procedure is immune from scrutiny under the dueprocess clause,” Williams, 337 US at 252 n 18; see also Townsend
v Burke, 334 US 736, 741; 68 S Ct 1252; 92 L Ed 1690 (1948)
(holding that sentencing a defendant on the basis of untrue assumptions about his criminal record violated due process).
12
McMillan itself has language recognizing that its rule may
not apply outside the particular question it addressed. See McMillan, 477 US at 91 (stating that “we have little difficulty concluding that in this case the preponderance standard satisfies due
process”) (emphasis added); id. at 92 (stating that “[w]e see nothing in Pennsylvania’s scheme that would warrant constitutionalizing burdens of proof at sentencing”) (emphasis added). Other
courts have also recognized that McMillan and related Supreme
Court cases, “while generally endorsing rules that permit sentence enhancements to be based on conduct not proved to the
same degree required to support a conviction, have not embraced

App. 16
course, different from uncharged conduct—acquitted
conduct has been formally charged and specifically
adjudicated by a jury. While it is true that McMillan
declined to “constitutionaliz[e] burdens of proof at sentencing,” McMillan, 477 US at 92, that disinclination
was expressed in an answer to a different question
than the one we answer now.
Acquitted conduct is already constitutionalized.
Due process encompasses the requirement that the
state prove the charges beyond a reasonable doubt, to
be sure. But that’s not all it guarantees.13 See Faust,
456 F3d at 1352 (Barkett, J., concurring specially)
(concluding that the use of acquitted conduct at sentencing violates “other aspects of ‘the requirement of
fundamental fairness’ embodied in the constitutional
right to due process of law”), quoting Winship, 397 US
at 369 (Harlan, J., concurring). It also encompasses the
presumption of innocence and the requirement of notice.
A defendant is entitled to a presumption of innocence as to all charged conduct until proven guilty beyond a reasonable doubt, and that presumption is
the concept that those rules are free from constitutional constraints.” United States v Lombard, 72 F3d 170, 176 (CA 1, 1995).
13
See, e.g., Faust, 456 F3d at 1351 n 2 (Barkett, J., concurring specially) (“I address my disagreement with McMillan primarily in order to distinguish the due process claim rejected by
the Supreme Court in that case from the very different and particular due process problem . . . that arises when a defendant is
sentenced on the basis of charges of which he has actually been
acquitted.”).

App. 17
supposed to do meaningful constitutional work as long
as it applies. At least that’s what we tell the accused14
and the jury15 about how it works. We can think of no
reason that a jury’s finding the defendant not guilty of
a charge undoes that guarantee. In fact, the jury’s view
that the state did not meet its burden of proof should
cut the other way.
Hypotheticals are helpful. Imagine a judge sending a defendant acquitted of all the charges against
him to prison because the judge believed the evidence
supported some punishment. Or a judge in a bench
trial acquits a defendant of some charges but convicts
of others and then punishes him as if he had been convicted of all the charges.
The difference between acquitted conduct and uncharged bad acts presented at sentencing is critical
and constitutional. Acquitted conduct shows up at sentencing in the company of the due-process protection
of the presumption of innocence; uncharged conduct
does not, says McMillan.
Due process also requires adequate notice. A defendant sentenced for conduct the jury acquitted him
of surely has a notice complaint. See, e.g., United
States v Canania, 532 F3d 764, 777 (CA 8, 2008)
(Bright, J., concurring) (stating that the use of acquitted conduct at sentencing violates the due-process
right to notice because “[i]t is not unreasonable for a
14
15

MCR 6.610(E)(3)(b)(iv); MCR 6.302(B)(3)(b) and (c).
M Crim JI 1.9; M Crim JI 3.2.

App. 18
defendant to expect that conduct underlying a charge
of which he’s been acquitted to play no determinative
role in his sentencing”); see also Ewing, 435 Mich at
454 (opinion by BRICKLEY, J.) (stating that before acquitted conduct may be used to enhance a sentence, a
defendant “should be able to test the accuracy of those
allegations” so that the judge “may hear argument
from the parties and decide how to view [acquitted conduct] testimony in light of the acquittal”). Because
McMillan concerned uncharged conduct and not acquitted conduct, it does not address these constitutional dueprocess questions. Nor could it have—uncharged and
therefore unconsidered-by-a-jury conduct is apples to
acquitted conduct’s oranges.
Second problem: McMillan’s continued vitality is
significantly in question after Alleyne v United States,
570 US 99; 133 S Ct 2151; 186 L Ed 2d 314 (2013). At
minimum, its Sixth Amendment analysis has been
overruled in everything but name.16
16

The Alleyne Court did us no favors in that regard given
that arguably, but only arguably, five justices said that Alleyne
overruled McMillan. Alleyne, 570 US at 119-120 (Sotomayor, J.,
concurring, joined by Ginsburg and Kagan, JJ.) (noting that “Five
Members of the Court” in Harris v United States, 536 US 545; 122
S Ct 2406; 153 L Ed 2d 524 (2002), recognized that McMillan’s
analysis was inconsistent with Apprendi and that McMillan survived Harris only because Justice Breyer could not “yet accept”
Apprendi); see id. at 124 (Breyer, J., concurring in part and concurring in the judgment) (agreeing with overruling Harris because “the time has come to end this anomaly in Apprendi’s
application” but not mentioning McMillan) (emphasis added); id.
at 133 (Alito, J., dissenting) (characterizing the majority opinion
as “cast[ing] aside” McMillan as well as Harris). But the evidence

App. 19
Third problem: even if McMillan’s due-process
analysis remains superficially viable, the complementary analysis of the Sixth Amendment jury-trial right
and the Fourteenth Amendment due-process right necessarily calls it into question as a practical matter. See
Apprendi, 530 US at 476 (stating that its rule is
grounded in the notice and jury-trial rights of the Sixth
Amendment as well as the Fourteenth Amendment);
Alleyne, 570 US at 104 (opinion by Thomas, J.) (stating
that it is the Sixth Amendment jury-trial right “in conjunction with the Due Process Clause” that requires
that each element of a crime be proved to the jury beyond a reasonable doubt). The interwoven nature of
the United States Supreme Court’s analysis of the
Sixth Amendment and due-process rights makes it impossible to conclude that its analysis of the former has

is mounting, and it suggests McMillan’s due-process analysis has
become equally untenable. See United States v Haymond, 588 US
___; ___ S Ct ___; ___ L Ed 2d ___ (2019) (Docket No. 17-1672)
(opinion by Gorsuch, J.); slip op at 9-10 (stating that Alleyne found
“no basis in the original understanding of the Fifth and Sixth
Amendments for McMillan and Harris” and “expressly overruled
those decisions”).
Several courts post-Alleyne have specifically stated that Alleyne overruled McMillan, even though the majority opinion in
Alleyne did not explicitly do so. See, e.g., Robinson v Woods, 901
F3d 710, 715 (CA 6, 2018) (stating that “Alleyne was a watershed
opinion, overruling two prior precedents—Harris . . . and McMillan”); United States v Cassius, 777 F3d 1093, 1095 (CA 10, 2015)
(stating that in Alleyne “the Supreme Court explicitly overruled
Harris and McMillan”); Commonwealth v Hanson, 623 Pa 388,
414; 82 A3d 1023 (2013) (characterizing Alleyne as having “overruled” Harris and McMillan).

App. 20
been repudiated but its analysis of the latter remains
entirely viable.
That said, while we believe McMillan rests on
an extremely shaky foundation, we leave to the United
States Supreme Court “the prerogative of overruling
its own decisions.” Rodriguez de Quijas v Shearson/
American Express, Inc, 490 US 477, 484; 109 S Ct 1917;
104 L Ed 2d 526 (1989). Thus, it is because McMillan
did not involve acquitted conduct that we conclude
that it does not answer the question here.
B.

WATTS

Watts is in many ways the most difficult to dispense with, and also the most difficult to parse. Watts
directly addressed a sentencing court’s use of acquitted
conduct at sentencing. But though its language was
not always specific about the constitutional right it examined,17 in a later case the Court made clear that
17

The Watts Court at one point quoted Dowling for the proposition that “ ‘an acquittal in a criminal case does not preclude the
Government from relitigating an issue when it is presented in a
subsequent action governed by a lower standard of proof.’ ” Watts,
519 US at 156, quoting Dowling, 493 US at 349. Dowling, unlike
Watts, was both a double-jeopardy and a due-process case. But it
also involved a different question from the one presented here:
the issue in Dowling was whether the trial court could admit
other-acts evidence in a subsequent prosecution when that otheracts evidence involved conduct of which the defendant had previously been acquitted. It did not involve whether the trial court
could punish the defendant more severely on the basis of that acquitted conduct. See also People v Oliphant, 399 Mich 472, 499500; 250 NW2d 443 (1976) (similarly concluding, 14 years before
Dowling, that the introduction of acquitted conduct as other-acts

App. 21
Watts addressed only a double-jeopardy challenge to
the use of acquitted conduct. Five justices gave it sideeye treatment in Booker and explicitly limited it to the
double-jeopardy context. Booker, 543 US at 240 n 4 (observing that Watts “presented a very narrow question
regarding the interaction of the Guidelines with the
Double Jeopardy Clause, and did not even have the
benefit of full briefing or oral argument,” so it was “unsurprising that we failed to consider fully the issues
presented to us in these cases”).18 As we must, we take
the Court at its word. We therefore find Watts unhelpful in resolving whether the use of acquitted conduct
at sentencing violates due process.19

evidence did not violate double jeopardy, though not addressing
due process).
18
In a pre-Booker case, Alabama v Shelton, 535 US 654, 665;
122 S Ct 1764; 152 L Ed 2d 888 (2002), the United States Supreme
Court cited Watts for the proposition (made in passing) that a sentencing court’s reliance on acquitted conduct does not violate due
process. We consider that dictum repudiated by Booker’s clear
statement limiting Watts to the double-jeopardy context.
19
We also find it significant that although Watts stated that
the use of acquitted conduct at sentencing was not constitutionally barred by double-jeopardy principles, its analysis relied substantially on a statute that has no counterpart in Michigan law.
In Watts, the Supreme Court quoted 18 USC 3661 as codifying
the “longstanding principle that sentencing courts have broad discretion to consider various kinds of information.” Watts, 519 US
at 151. That statute provides:
No limitation shall be placed on the information
concerning the background, character, and conduct of
a person convicted of an offense which a court of the
United States may receive and consider for the purpose
of imposing an appropriate sentence.

App. 22
C.

SO NOW WHAT?

Because we conclude that neither McMillan nor
Watts requires us to reject the defendant’s argument
that the use of acquitted conduct to sentence a defendant more harshly violates due process,20 we address
this question on a clean slate.21 A few state courts have
concluded that reliance on acquitted conduct at sentencing violates due process, grounding that conclusion in the guarantees of fundamental fairness and the
presumption of innocence. See State v Cote, 129 NH
358, 375; 530 A2d 775 (1987) (concluding that “the presumption of innocence is as much ensconced in our due
process as the right to counsel,” citing Coffin); State v
Marley, 321 NC 415, 425; 364 SE2d 133 (1988) (also
citing Coffin in support of its conclusion that “due process and fundamental fairness precluded the trial court
from aggravating defendant’s second degree murder
sentence with the single element—premeditation and
20

The dissent claims that our holding directly contradicts existing precedent, but it primarily cites only federal circuit court
cases that rely on McMillan and Watts to support its claim. But
of course “[a]lthough lower federal court decisions may be persuasive, they are not binding on state courts.” Abela v Gen Motors
Corp, 469 Mich 603, 607; 677 NW2d 325 (2004). And to the extent
the dissent relies on McMillan, Watts, and our decision in Ewing,
we have explained why we don’t find these decisions persuasive
or binding.
21
While we disagree with the dissent’s view that Ewing is
binding on us, we agree with the dissent that our decision in People v Grimmett, 388 Mich 590; 202 NW2d 278 (1972), overruled in
part on other grounds by People v White, 390 Mich 245; 212 NW2d
222 (1973), is not controlling here for the reasons the dissent
gives.

App. 23
deliberation—which, in this case, distinguished first
degree murder after the jury had acquitted defendant
of first degree murder”).
We agree. When a jury has made no findings (as
with uncharged conduct, for example), no constitutional impediment prevents a sentencing court from
punishing the defendant as if he engaged in that conduct using a preponderance-of-the-evidence standard.22 But when a jury has specifically determined that
the prosecution has not proven beyond a reasonable
doubt that a defendant engaged in certain conduct, the
defendant continues to be presumed innocent.23 “To
allow the trial court to use at sentencing an essential
element of a greater offense as an aggravating factor,
when the presumption of innocence was not, at trial, overcome as to this element, is fundamentally inconsistent

22

Unless, of course, those findings mandate an increase in
the mandatory minimum or statutory maximum sentence. See
Apprendi, 530 US 466; Alleyne, 570 US 99.
23
We respectfully disagree with the dissent’s view that this
is an overbroad reading of the presumption of innocence. The fact
that the prosecution has overcome this presumption as to one
charge does not allow a court to ignore that it has not done so as
to others. See generally Estelle v Williams, 425 US 501, 503; 96 S
Ct 1691; 48 L Ed 2d 126 (1976) (stating that “[t]o implement the
presumption, courts must be alert to factors that may undermine
the fairness of the fact-finding process” and “carefully guard
against dilution of the principle that guilt is to be established by
probative evidence and beyond a reasonable doubt”). Little would
seem to more “undermine the fairness of the fact-finding process”
than having the fact-finder render a not-guilty verdict yet allow
the judge to impose a sentence based on his own conclusion that
the defendant did commit the acquitted offense.

App. 24
with the presumption of innocence itself.” Marley, 321
NC at 425.
Unlike the uncharged conduct in McMillan, conduct that is protected by the presumption of innocence
may not be evaluated using the preponderance-ofthe-evidence standard without violating due process.
While we recognize that our holding today represents
a minority position, one final consideration informs our
conclusion: the volume and fervor of judges and commentators who have criticized the practice of using
acquitted conduct as inconsistent with fundamental
fairness and common sense. Regarding jurists, see, e.g.,
Faust, 456 F3d at 1349 (Barkett, J., concurring specially) (“I strongly believe . . . that sentence enhancements based on acquitted conduct are unconstitutional
under the Sixth Amendment, as well as the Due Process Clause of the Fifth Amendment”); id. at 1351-1352
& n 2; Canania, 532 F3d at 778 (Bright, J., concurring)
(“I wonder what the man on the street might say about
this practice of allowing a prosecutor and judge to say
that a jury verdict of ‘not guilty’ for practical purposes
may not mean a thing”); United States v Mercado, 474
F3d 654, 662 (CA 9, 2007) (Fletcher, J., dissenting)
(“Such a sentence has little relation to the actual conviction, and is based on an accusation that failed to receive confirmation from the defendant’s equals and
neighbors”); United States v White, 551 F3d 381, 392
(CA 6, 2008) (Merritt, J., dissenting) (“[T]he use of acquitted conduct at sentencing defies the Constitution,
our common law heritage, the Sentencing Reform Act,
and common sense.”); United States v Brown, 892 F3d

App. 25
385, 408 (CA DC, 2018) (Millett, J., concurring) (“[A]llowing courts at sentencing ‘to materially increase the
length of imprisonment’ based on conduct for which
the jury acquitted the defendant guts the role of the
jury in preserving individual liberty and preventing
oppression by the government.”) (citation omitted); id.
at 415 (Kavanaugh, J., dissenting in part) (“[T]here are
good reasons to be concerned about the use of acquitted
conduct at sentencing, both as a matter of appearance
and as a matter of fairness. . . .”).
Regarding commentators, for just a sampling, see
Johnson, The Puzzling Persistence of Acquitted Conduct in Federal Sentencing, and What Can be Done
About It, 49 Suffolk Univ L Rev 1, 25 (2016) (quoting
other sources for the proposition that “[t]he use of
acquitted conduct has been characterized as, among
other things, ‘Kafka-esque, repugnant, uniquely malevolent, and pernicious[,]’ ‘mak[ing] no sense as a matter of law or logic,’ and . . . a ‘perver[sion] of our system
of justice,’ as well as ‘bizarre’ and ‘reminiscent of Alice
in Wonderland’ ”); Ngov, Judicial Nullification of Juries: The Use of Acquitted Conduct at Sentencing, 76
Tenn L Rev 235, 261 (2009) (“[T]he jury is essentially
ignored when it disagrees with the prosecution. This
outcome is nonsensical and in contravention of the
thrust of recent Supreme Court jurisprudence.”); Beutler, A Look at the Use of Acquitted Conduct at Sentencing, 88 J Crim L & Criminology 809, 809 (1998)
(observing that “[t]he use of acquitted conduct in sentencing raises due process and double jeopardy concerns that deserved far more careful analysis than

App. 26
they received” in Watts and noting “the fundamental
differences between uncharged and acquitted conduct
which trigger these constitutional concerns”).
This ends here. Unlike many of those judges and
commentators, we do not believe existing United States
Supreme Court jurisprudence prevents us from holding that reliance on acquitted conduct at sentencing is
barred by the Fourteenth Amendment. We hold that it
is.
Because the sentencing court punished the defendant more severely on the basis of the judge’s finding by
a preponderance of the evidence that the defendant
committed the murder of which the jury had acquitted
him,24 it violated the defendant’s due-process protections.

24

The dissent spends most of its pages denying that this is
what the trial court did, asserting that the court merely sentenced
him as if he had caused a death while committing felon-in-possession
as a fourth-offense habitual offender. But the judge’s comments
at sentencing are clear, as the dissent itself later concedes. Thus,
to the extent the distinction the dissent wants to draw between
sentencing a defendant more harshly based on the conclusion that
the defendant committed an offense of which he was acquitted
and sentencing a defendant “while considering conduct that supported the acquitted charge” is a meaningful one (and we are not
convinced it is), this case plainly involves the former.
Finally, the dissent essentially says that trial courts are free
to sentence defendants for all acquitted charges as long as the
sentence imposed is statutorily permitted in connection with the
convicted charge. Or, put differently, the court can’t impose the
statutory sentence for the acquitted charge if it’s not a permissible sentence for the convicted charge. But that constraint is

App. 27
IV.

CONCLUSION

We hold that due process bars sentencing courts
from finding by a preponderance of the evidence that a
defendant engaged in conduct of which he was acquitted. Because the judge did exactly that in this case, we
vacate the defendant’s sentence for felon-in-possession
and remand that case to the Saginaw Circuit Court for
resentencing consistent with this opinion.
Bridget M. McCormack
David F. Viviano
Richard H. Bernstein
Megan K. Cavanagh

already established by the sentencing statutes. The dissent’s constitutional rule therefore would apply to exactly zero cases.

App. 28
STATE OF MICHIGAN
SUPREME COURT
PEOPLE OF THE
STATE OF MICHIGAN,
Plaintiff-Appellee,
No. 152934

v
ERIC LAMONTEE BECK,
Defendant-Appellant.
VIVIANO, J. (concurring).

In every criminal trial, jurors are instructed,
“What you decide about any fact in this case is final.”1
But if a judge may increase a defendant’s sentence beyond what the jury verdict alone authorizes—here,
based on the judge’s finding that the defendant committed a crime of which the jury just acquitted him—a
more accurate instruction would read: “What you decide about any fact in this case is interesting, but the
court is always free to disregard it.” Though I concur
fully in the majority opinion, including its holding that
due process precludes consideration of acquitted conduct at sentencing under a preponderance-of-the-evidence standard, I write separately to explain (1) why I
believe that, because defendant’s sentence would not
survive reasonableness review without the judge-found
1

M Crim JI 2.4(3). A similar instruction is given in every
civil trial. See M Civ JI 2.03 (“Your decision as to any fact in this
case is final.”).

App. 29
fact of homicide, his sentence also violates the Sixth
Amendment, and (2) why I believe more generally that
the consideration of acquitted conduct at sentencing
raises serious concerns under the Sixth Amendment.
The Sixth Amendment enshrines the right to trial
by jury: “In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an impartial jury of the State and district wherein the crime
shall have been committed. . . .”2 As the majority recognizes, the United States Supreme Court has not addressed whether the use of acquitted conduct at
sentencing is permissible under the Sixth Amendment.
United States v Watts3 was a Fifth Amendment decision. However, although the Supreme Court has not directly answered this question, I believe that its Sixth
Amendment jurisprudence provides helpful guidance.
I. THE JURY MUST AUTHORIZE ALL FACTS
NECESSARY TO PREVENT A SENTENCE FROM
BEING SUBSTANTIVELY UNREASONABLE
In Blakely v Washington,4 the Supreme Court stated,
“When a judge inflicts punishment that the jury’s verdict alone does not allow, the jury has not found all the
2

US Const, Am VI. See also Const 1963, art 1, § 20 (“In every
criminal prosecution, the accused shall have the right to a speedy
and public trial by an impartial jury. . . .”).
3
United States v Watts, 519 US 148; 117 S Ct 633; 136 L Ed
2d 554 (1997).
4
Blakely v Washington, 542 US 296, 304; 124 S Ct 2531; 159
L Ed 2d 403 (2004), quoting 1 Bishop, Criminal Procedure (2d ed),
§ 87, p 55.

App. 30
facts ‘which the law makes essential to the punishment,’ . . . and the judge exceeds his proper authority.”
In other words, as Justice Antonin Scalia explained in
his dissent in Oregon v Ice, “[W]e have hitherto considered ‘the central sphere of [the Supreme Court’s] concern’ to be facts necessary to the increase of the
defendant’s sentence beyond what the jury verdict
alone justifies. ‘If the jury’s verdict alone does not authorize the sentence, if, instead, the judge must find an
additional fact to impose the longer term, the Sixth
Amendment requirement is not satisfied.’ ”5 This makes
sense. “A judge’s authority to issue a sentence derives
from, and is limited by, the jury’s factual findings of
criminal conduct.”6
Even under United States v Booker’s7 advisory
guidelines, there can be instances where the jury’s verdict alone does not authorize the punishment because
the punishment would not be reasonable except for the
judge’s finding of fact. In his concurrence in Rita v
United States, Justice Scalia offered two hypothetical
5

Oregon v Ice, 555 US 160, 178; 129 S Ct 711; 172 L Ed 2d
517 (2009) (Scalia, J., dissenting), quoting Cunningham v California, 549 US 270, 290; 127 S Ct 856; 166 L Ed 2d 856 (2007).
See also Alleyne v United States, 570 US 99, 103; 133 S Ct 2151;
186 L Ed 2d 314 (2013) (“Any fact that, by law, increases the penalty for a crime is an ‘element’ that must be submitted to the jury
and found beyond a reasonable doubt.”).
6
United States v Haymond, 588 US ___; ___ S Ct ___; ___ L
Ed 2d ___ (2019) (Docket No. 17-1672) (opinion of Gorsuch, J.);
slip op at 6. See also Blakely, 542 US at 308 (“[T]he Sixth Amendment by its terms is . . . a reservation of jury power.”).
7
United States v Booker, 543 US 220; 125 S Ct 738; 160 L Ed
2d 621 (2005).

App. 31
situations that would pose such Sixth Amendment concerns:
First, consider two brothers with similar
backgrounds and criminal histories who are
convicted by a jury of respectively robbing two
banks of an equal amount of money. Next assume that the district judge finds that one
brother, fueled by racial animus, had targeted
the first bank because it was owned and operated by minorities, whereas the other brother
had selected the second bank simply because
its location enabled a quick getaway. Further
assume that the district judge imposes the
statutory maximum upon both brothers, basing those sentences primarily upon his perception that bank robbery should be punished
much more severely than the Guidelines base
level advises, but explicitly noting that the
racially biased decisionmaking of the first
brother further justified his sentence. Now
imagine that the appellate court reverses as
excessive only the sentence of the nonracist
brother. Given the dual holdings of the appellate court, the racist has a valid Sixth Amendment claim that his sentence was reasonable
(and hence lawful) only because of the judicial
finding of his motive in selecting his victim.
Second, consider the common case in
which the district court imposes a sentence
within an advisory Guidelines range that has
been substantially enhanced by certain judgefound facts. For example, the base offense
level for robbery under the Guidelines is 20,
which, if the defendant has a criminal history

App. 32
of I, corresponds to an advisory range of 33-41
months. If, however, a judge finds that a firearm was discharged, that a victim incurred
serious bodily injury, and that more than $5
million was stolen, then the base level jumps
by 18, producing an advisory range of 235-293
months. When a judge finds all of those facts
to be true and then imposes a within-Guidelines sentence of 293 months, those judgefound facts, or some combination of them, are
not merely facts that the judge finds relevant
in exercising his discretion; they are the legally essential predicate for his imposition of
the 293-month sentence. His failure to find
them would render the 293-month sentence
unlawful. That is evident because, were the
district judge explicitly to find none of those
facts true and nevertheless to impose a 293month sentence (simply because he thinks
robbery merits seven times the sentence that
the Guidelines provide) the sentence would
surely be reversed as unreasonably excessive.8
These hypotheticals illustrate that “for every
given crime there is some maximum sentence that will
be upheld as reasonable based only on the facts found
by the jury or admitted by the defendant. Every sentence higher than that is legally authorized only by
some judge-found fact, in violation of the Sixth Amendment.”9 This is because, as stated above, “The Sixth
8

Rita v United States, 551 US 338, 371-373; 127 S Ct 2456;
168 L Ed 2d 203 (2007) (Scalia, J., concurring) (citations omitted).
9
Id. at 372.

App. 33
Amendment requires that ‘[a]ny fact (other than a
prior conviction) which is necessary to support a sentence exceeding the maximum authorized by the facts
established by a plea of guilty or a jury verdict must be
admitted by the defendant or proved to a jury beyond
a reasonable doubt.’ ”10 As Justice Scalia explained in
his dissenting statement in Joseph Jones v United
States:
The Sixth Amendment, together with the
Fifth Amendment’s Due Process Clause, “requires that each element of a crime” be either
admitted by the defendant, or “proved to the
jury beyond a reasonable doubt.” Any fact that
increases the penalty to which a defendant is
exposed constitutes an element of a crime, and
“must be found by a jury, not a judge.” We have
held that a substantively unreasonable penalty is illegal and must be set aside. It unavoidably follows that any fact necessary to
prevent a sentence from being substantively
unreasonable—thereby exposing the defendant to the longer sentence—is an element that
must be either admitted by the defendant or
found by the jury. It may not be found by a
judge.11

10

Id. at 370, quoting Booker, 543 US at 244.
Joseph Jones v United States, 574 US ___, ___; 135 S Ct 8,
8; 190 L Ed 2d 279 (2014) (Scalia, J., dissenting) (citations omitted). Justice Scalia contended that the Court should “put an end
to the unbroken string of cases disregarding the Sixth Amendment—or to eliminate the Sixth Amendment difficulty by acknowledging that all sentences below the statutory maximum are
substantively reasonable.” Id. at ___; 135 S Ct at 9. While I do not
11

App. 34
While the Supreme Court has not yet expressly
adopted (or rejected) Justice Scalia’s Sixth Amendment analysis,12 it appears that the Supreme Court
has been moving toward a more robust interpretation
of the Sixth Amendment. In McMillan v Pennsylvania,13 the Supreme Court summarily dismissed the defendant’s Sixth Amendment challenges to judge-found
facts affecting his sentence. However, after McMillan,
the Supreme Court has found multiple penal schemes

necessarily disagree with Justice Scalia’s criticism of Alleyne, Alleyne, 570 US at 124 (Roberts, C.J., joined by Scalia, J., dissenting), and of substantive reasonableness review, Rita, 551 US at
370 (Scalia, J., concurring in part), Alleyne and substantive reasonableness review are the law of the land. See People v Lockridge, 498 Mich 358, 388; 870 NW2d 502 (2015) (stating that “the
rule from Alleyne applies” to Michigan’s indeterminate sentencing scheme); id. at 392 (stating that departure sentences “will be
reviewed . . . for reasonableness”).
12
Though, as Justice Scalia noted, the federal circuit courts
have rejected this analysis. Joseph Jones, 574 US at ___; 135 S Ct
at 9 (Scalia, J., dissenting) (“Nonetheless, the Courts of Appeals
have uniformly taken our continuing silence to suggest that the
Constitution does permit otherwise unreasonable sentences supported by judicial factfinding, so long as they are within the statutory range.”), citing United States v Benkahla, 530 F3d 300, 312
(CA 4, 2008); United States v Hernandez, 633 F3d 370, 374 (CA 5,
2011); United States v Ashqar, 582 F3d 819, 824-825 (CA 7, 2009);
United States v Treadwell, 593 F3d 990, 1017-1018 (CA 9, 2010);
United States v Redcorn, 528 F3d 727, 745-746 (CA 10, 2008).
This Court has not addressed this argument, which was not presented in either Lockridge, 498 Mich 358, or People v Steanhouse,
500 Mich 453; 902 NW2d 327 (2017).
13
McMillan v Pennsylvania, 477 US 79, 93; 106 S Ct 2411;
91 L Ed 2d 67 (1986).

App. 35
in violation of the Sixth Amendment.14 As the majority
notes, McMillan is now all but overruled.15
As the above discussion makes clear, “any fact necessary to prevent a sentence from being substantively
unreasonable—thereby exposing the defendant to the
longer sentence—is an element that must be either admitted by the defendant or found by the jury. It may
not be found by a judge.”16 As Justice Scalia seemed to
recognize, the consideration of acquitted conduct at
sentencing is particularly at odds with this rule.17
14

Apprendi v New Jersey, 530 US 466, 490; 120 S Ct 2348;
147 L Ed 2d 435 (2000) (“Other than the fact of a prior conviction,
any fact that increases the penalty for a crime beyond the prescribed statutory maximum must be submitted to a jury, and
proved beyond a reasonable doubt.”); Blakely, 542 US 296 (holding that the “exceptional” sentence that resulted from the judgefound fact violated the Sixth Amendment); Alleyne, 570 US at 112
(“[A] fact increasing either end of the range produces a new penalty and constitutes an ingredient of the offense.”); Haymond, 588
US at ___ (opinion by Gorsuch, J.); slip op at 1 (holding that the
mandatory minimum imposed after the defendant violated the
conditions of his supervised release violated the Sixth Amendment).
15
See ante at 15 n 16; Haymond, 588 US at ___ (opinion by
Gorsuch, J.); slip op at 9-10 (stating that Alleyne found “no basis
in the original understanding of the Fifth and Sixth Amendments
for McMillan and Harris [v United States, 536 US 545; 122 S Ct
2406; 153 L Ed 2d 524 (2002),]” and “expressly overruled those
decisions”).
16
Joseph Jones, 574 US at ___; 135 S Ct at 8 (Scalia, J., dissenting).
17
Id. at ___; 135 S Ct at 9 (lamenting the Court’s unwillingness to address the anomaly in its caselaw and noting that the
case at hand was “a particularly appealing case” in which to do
so “because not only did no jury convict these defendants of the

App. 36
Take, for example, the instant case: defendant was
charged with open murder, carrying a firearm with unlawful intent, felon in possession of a firearm (felonin-possession), and three counts of felony-firearm.
Defendant was convicted, as a fourth-offense habitual
offender, of felon-in-possession and second-offense felony-firearm, and acquitted of the other charges. But
the judge found, by a preponderance of the evidence,
that defendant “was the person who perpetrated the
killing,” and the judge imposed a prison sentence of
240 to 400 months, a sentence far in excess of the
guidelines minimum sentence range of 22 to 76 months.
Such a significant departure would clearly not be reasonable based only on the jury’s verdict that defendant
was guilty of felon-in-possession and felony-firearm.18
Thus, the fact that defendant killed the victim was a
“legally essential predicate for his imposition of the . . .
sentence.”19 Because the finding that defendant committed homicide exposed him to a longer sentence, the
Sixth Amendment requires that it be found by a jury
or admitted by the defendant. Here, it was only found

offense the sentencing judge thought them guilty of, but a jury
acquitted them of that offense.”).
18
Steanhouse, 500 Mich at 459-460 (“[T]he proper inquiry
when reviewing a sentence for reasonableness is whether the trial
court abused its discretion by violating the ‘principle of proportionality’ set forth in People v Milbourn, 435 Mich 630, 636; 461
NW2d 1 (1990), ‘which requires sentences imposed by the trial
court to be proportionate to the seriousness of the circumstances
surrounding the offense and the offender.’ ”).
19
Rita, 551 US at 372 (Scalia, J., concurring).

App. 37
by a judge. Therefore, I would hold that the sentence
at issue violates the Sixth Amendment.
II.

CONSIDERATION OF ACQUITTED
CONDUCT MORE GENERALLY

While the above analysis would be sufficient to
resolve this case, I have serious concerns regarding
whether acquitted conduct may ever be considered at
sentencing without violating the Sixth Amendment.
These concerns are based on the history of the jury and
the Supreme Court’s Sixth Amendment jurisprudence.
A. THE HISTORICAL
IMPORTANCE OF THE JURY
“[T]he scope of the constitutional jury right must
be informed by the historical role of the jury at common law.”20 As the Supreme Court explained in Apprendi v New Jersey:21
We do not suggest that trial practices cannot
change in the course of centuries and still remain true to the principles that emerged from
the Framers’ fears “that the jury right could
be lost not only by gross denial, but by erosion.” But practice must at least adhere to
the basic principles undergirding the requirements of trying to a jury all facts necessary to

20
21

Ice, 555 US at 170.
Apprendi, 530 US at 483-484.

App. 38
constitute a statutory offense, and proving
those facts beyond reasonable doubt.
Practice must adhere to these principles “[b]ecause the
Constitution’s guarantees cannot mean less today than
they did the day they were adopted. . . .”22 Thus, while
some trial practices may have changed since the founding, a historical inquiry provides important evidence
as to what “intelligible content”23 we should give to the
Sixth Amendment right to a jury.
As an initial matter, the importance of the jury
cannot be overstated. Blackstone referred to the jury
as the “sacred bulwark of the nation,”24 and he described the trial by jury as
a trial that hath been used time out of mind
in this nation, and seems to have been co-eval
with the first civil government thereof. Some
authors have endeavoured to trace the original of juries up as high as the Britons themselves, the first inhabitants of our island; but
certain it is, that they were in use among the
22

Haymond, 588 US at ___ (opinion of Gorsuch, J.); slip op

at 7.
23

Blakely, 542 US at 305 (noting “the need to give intelligible
content to the right of jury trial”); Apprendi, 530 US at 499
(Scalia, J., concurring) (“And the guarantee that ‘[i]n all criminal
prosecutions, the accused shall enjoy the right to . . . trial, by an
impartial jury,’ has no intelligible content unless it means that all
the facts which must exist in order to subject the defendant to a
legally prescribed punishment must be found by the jury.”).
24
People v Cain, 498 Mich 108, 129; 869 NW2d 829 (2015)
(VIVIANO, J., dissenting), quoting 4 Blackstone, Commentaries on
the Laws of England, p *350.

App. 39
earliest Saxon colonies. . . . [Its] establishment however and use, in this island, of what
date soever it be, . . . was always so highly esteemed and valued by the people, that no conquest, no change of government, could ever
prevail to abolish it.25
At the time of the founding, Alexander Hamilton noted,
“The friends and adversaries of the plan of the convention, if they agree in nothing else, concur at least in the
value they set upon the trial by jury: Or if there is any
difference between them it consists in this; the former
regard it as a valuable safeguard to liberty, the latter
represent it as the very palladium of free government.”26
More recently, the Supreme Court has referred to the
right to trial by jury “ ‘as the great bulwark of [our] civil
and political liberties,’ ” intended “ ‘[t]o guard against a
spirit of oppression and tyranny on the part of rulers. . . .’ ”27
25

3 Blackstone, Commentaries on the Laws of England, pp
**349-350.
26
The Federalist No. 83 (Hamilton) (Hamilton ed, 1864), p
614. Or as Thomas Jefferson asserted, “I consider [trial by jury]
as the only anchor ever yet imagined by man, by which a government can be held to the principles of its constitution.” 3 Washington, The Writings of Thomas Jefferson (New York: Derby &
Jackson, 1859), p 71.
27
Apprendi, 530 US at 466, quoting 2 Story, Commentaries
on the Constitution of the United States (4th ed), pp 540-541. See
also Haymond, 588 US at ___ (opinion of Gorsuch, J.); slip op at 5
(“Together with the right to vote, those who wrote our Constitution considered the right to trial by jury ‘the heart and lungs, the
mainspring and the center wheel’ of our liberties, without which
‘the body must die; the watch must run down; the government must
become arbitrary.’ ”) (citation omitted); Sullivan v Louisiana, 508

App. 40
The role of juries in sentencing has evolved over
time, such that modern sentencing is very different
than it was at the time of the founding. Unlike modern
juries, colonial juries played a role in sentencing. This
was because several crimes were capital offenses, and
thus, a guilty verdict necessarily dictated the punishment.28 Consequently, practically, a judge often had no
discretion in sentencing:
US 275, 281; 113 S Ct 2078; 124 L Ed 2d 182 (1993) (describing
trial by jury as a “ ‘basic protectio[n]’ whose precise effects are unmeasurable, but without which a criminal trial cannot reliably
serve its function”), quoting Rose v Clark, 478 US 570, 577; 106
S Ct 3101; 92 L Ed 2d 460 (1986) (alteration in original); Amar,
The Bill of Rights: Creation and Reconstruction (New Haven: Yale
University Press, 1998), p 96 (“If we seek a paradigmatic image
underlying the original Bill of Rights, we cannot go far wrong in
picking the jury.”).
28
Gertner, Juries and Originalism: Giving “Intelligible Content” to the Right to a Jury Trial, 71 Ohio St L J 935, 939 (2010)
(“While scholars disagree about the details, it is reasonable to conclude that the colonial jury was a de facto and, to a degree, a de
jure sentencer. It was a de facto sentencer because of the nature
of the criminal law, on the one hand, and the process by which it
was selected, on the other. Many crimes were capital offenses.
The result was necessarily binary and easy to understand—guilt
and death or not guilty and freedom. Scalable punishments, punishments involving a term of years, were not common until the
end of the eighteenth century with the growth of penitentiaries.”);
Spooner, An Essay on the Trial by Jury (Boston: Bela Marsh,
1852), p 97 (“[T]he principle of Magna Carta, that a man should
be sentenced only by his peers, was in force, and acted upon as
law, in England, so lately as 1725, (five hundred years after
Magna Carta,). . . .”). See also Williams v New York, 337 US 241,
247-248; 69 S Ct 1079; 93 L Ed 1337 (1949) (“Undoubtedly the
New York statutes emphasize a prevalent modern philosophy of
penology that the punishment should fit the offender and not
merely the crime. The belief no longer prevails that every offense

App. 41
[W]ith respect to the criminal law of felonious
conduct, “the English trial judge of the later
eighteenth century had very little explicit discretion in sentencing. The substantive criminal law tended to be sanction-specific; it
prescribed a particular sentence for each offense. The judge was meant simply to impose
that sentence (unless he thought in the circumstances that the sentence was so inappropriate that he should invoke the pardon
process to commute it).” As Blackstone, among
many others, has made clear, “[t]he judgment,
though pronounced or awarded by the judges,
is not their determination or sentence, but the
determination and sentence of the law.”29
However, on the rare occasions when a penalty was not
set by law, judges had discretion to take into account a
wide variety of factors in sentencing.30

in a like legal category calls for an identical punishment without
regard to the past life and habits of a particular offender. This
whole country has traveled far from the period in which the death
sentence was an automatic and commonplace result of convictions—even for offenses today deemed trivial.”) (citation omitted).
29
Apprendi, 530 US at 479-480 (citation omitted).
30
Williams, 337 US at 246 (“[B]oth before and since the
American colonies became a nation, courts . . . practiced a policy
under which a sentencing judge could exercise a wide discretion
in the sources and types of evidence used to assist him in determining the kind and extent of punishment to be imposed within
limits fixed by law.”); Apprendi, 530 US at 481 (“We have often
noted that judges in this country have long exercised discretion of
this nature in imposing sentence within statutory limits in the
individual case.”) (emphasis omitted).

App. 42
Though I am aware of no source or scholarship
specifically addressing whether judges could consider
acquitted conduct at sentencing, it is true that the
Supreme Court “has repeatedly sought to guard the
historic role of the jury. . . .”31 But disregarding an acquittal at sentencing “trivializes ‘legal guilt’ or legal innocence.”32 Unlike uncharged conduct, which the jury
has only not “authorize[d],” consideration of acquitted
conduct entails consideration of “facts of which the jury
expressly disapproved.”33 In a related context, Justice
Neil Gorsuch explained the impact of similar Sixth
Amendment violations: “Nor did the absence of a jury’s
finding beyond a reasonable doubt only infringe the
rights of the accused; it also divested the ‘ “people at
large” ’—the men and women who make up a jury of a
defendant’s peers—of their constitutional authority to
set the metes and bounds of judicially administered

31

Haymond, 588 US at ___ (opinion of Gorsuch, J.); slip op

at 21.
32

United States v Pimental, 367 F Supp 2d 143, 152 (D Mass,
2005); United States v Ibanga, 454 F Supp 2d 532, 541 (E D Va,
2006), sentence vacated and case remanded, 271 F Appx 298 (CA
4, 2008) (“A sentence that repudiates the jury’s verdict undermines the juror’s role as both a pupil and participant in civic affairs. The juror as pupil learns that the law does not value the
results of his or her participation in the judicial process and may
reject it at will. The disparity in the sentencing ranges with and
without the inclusion of acquitted conduct effectively ‘[drives] a
wedge between the community’s sense of appropriate punishment
and the criminal sanction inflicted.’ ”) (citation omitted).
33
Pimental, 367 F Supp 2d at 152.

App. 43
criminal punishments.”34 And the “people at large” perceive the slight. As one frustrated juror wrote:
It seems to me a tragedy that one is asked
to serve on a jury, serves, but then finds their
work may not be given the credit it deserves.
We, the jury, all took our charge seriously. We
virtually gave up our private lives to devote
our time to the cause of justice, and it is a very
noble cause as you know, sir. We looked across
the table at one another in respect and in sympathy. We listened, we thought, we argued,
we got mad and left the room, we broke, we
rested that charge until tomorrow, we went
on. Eventually, through every hour-long tape
of a single drug sale, hundreds of pages of
transcripts, ballistics evidence, and photos, we
delivered to you our verdicts.
What does it say to our contribution as jurors when we see our verdicts, in my personal
view, not given their proper weight. It appears
to me that these defendants are being sentenced not on the charges for which they have
been found guilty but on the charges for which
the District Attorney’s office would have liked
them to have been found guilty. Had they
shown us hard evidence, that might have been
the outcome, but that was not the case. That

34

at 11.

Haymond, 588 US at ___ (opinion of Gorsuch, J.); slip op

App. 44
is how you instructed your jury in this case to
perform and for good reason.35
How can the jury continue to be “ ‘the
great bulwark of [our] civil and political liberties’ ”36 when an acquittal means only that a
defendant will not formally be sentenced for
the crime but may, in reality, spend far longer
in prison because a judge finds by a preponderance of the evidence that the defendant, in
fact, committed the crime of which he or she
was acquitted by the jury?37 Consideration of
35

United States v Canania, 532 F3d 764, 778 n 4 (CA 8, 2008)
(Bright, J., concurring) (quotation marks omitted).
36
Apprendi, 530 US at 477 (citation omitted).
37
It is worth noting that, although the federal circuits have
yet to agree, see note 12 of this opinion, several judges and commentators have expressed their vigorous opposition to the consideration of acquitted conduct at sentencing on Sixth Amendment
grounds. See, e.g., Pimental, 367 F Supp 2d at 152-153 (opinion
of Gertner, J.) (“[W]hen a court considers acquitted conduct it is
expressly considering facts that the jury verdict not only failed to
authorize; it considers facts of which the jury expressly disapproved. . . . To tout the importance of the jury in deciding facts,
even traditional sentencing facts, and then to ignore the fruits of
its efforts makes no sense—as a matter of law or logic.”); Ibanga,
454 F Supp 2d at 536 (opinion of Kelley, J.) (“Sentencing a defendant to time in prison for a crime that the jury found he did not
commit is a Kafka-esque result.”); United States v Faust, 456 F3d
1342, 1350 (CA 11, 2006) (Barkett, J., concurring) (“Even though
[the defendant]’s maximum possible sentence was not increased
by the sentencing judge’s independent findings—three separate
findings of actual, criminal conduct—they certainly do change the
quantity and quality of the stigma he faces. . . . [E]ven more importantly, “to consider acquitted conduct trivializes ‘legal guilt’ or
‘legal innocence’. . . .”); United States v White, 551 F3d 381, 392
(CA 6, 2008) (Merritt, J., dissenting) (“[T]he use of acquitted conduct
at sentencing defies the Constitution, our common law heritage,

App. 45
acquitted conduct at sentencing diminishes
the historical role of the jury.
B.

JURY NULLIFICATION

Another historical consideration also supports
this conclusion. Juries have historically protected defendants from prosecutorial overreach. “The Framers
envisioned the Sixth Amendment as a protection for
defendants from the power of the Government.”38 As
the Sentencing Reform Act, and common sense.”); Canania, 532
F3d at 777 (Bright, J., concurring) (“[T]he unfairness perpetuated
by the use of ‘acquitted conduct’ at sentencing in federal district
courts is uniquely malevolent.”); United States v Bell, 420 US App
DC 387, 389; 808 F3d 926 (2015) (Kavanaugh, J., concurring) (“Allowing judges to rely on acquitted or uncharged conduct to impose
higher sentences than they otherwise would impose seems a dubious infringement of the rights to due process and to a jury trial.
If you have a right to have a jury find beyond a reasonable doubt
the facts that make you guilty, and if you otherwise would receive,
for example, a five-year sentence, why don’t you have a right to
have a jury find beyond a reasonable doubt the facts that increase
that five-year sentence to, say, a 20-year sentence?”); United
States v Bagcho, ___ US App DC ___, ___; 923 F3d 1131, 1141
(2019) (Millett, J., concurring) (“It stands our criminal justice system on its head to hold that even a single extra day of imprisonment can be imposed for a crime that the jury says the defendant
did not commit.”); Outlaw, Giving an Acquittal Its Due: Why a
Quartet of Sixth Amendment Cases Means the End of United
States v. Watts and Acquitted Conduct Sentencing, 5 U Denv Crim
L Rev 189, 190 (2015); Yalinçak, Critical Analysis of Acquitted
Conduct Sentencing in the U.S.: “Kafka-Esque,” “Repugnant,”
“Uniquely Malevolent” and “Pernicious”?, 54 Santa Clara L Rev
675, 721 (2014); Ngov, Judicial Nullification of Juries: Use of Acquitted Conduct at Sentencing, 76 Tenn L Rev 235 (2009).
38
Alleyne, 570 US at 124 (Roberts, C.J., dissenting); see also
Blakely, 542 US at 308 (“[T]he Sixth Amendment by its terms is

App. 46
Chief Justice John Roberts stated: “The question here
is about the power of judges, not juries. . . . [T]he historical understanding of the jury right [is] as a defense
from judges, not a defense of judges. See Apprendi, [530
US at 498 (Scalia, J., concurring)] (‘Judges, it is sometimes necessary to remind ourselves, are part of the
State’).”39
Key to their role as “[p]opulist [p]rotectors,”40 juries found both the facts and the law.41 Chief Justice
not a limitation on judicial power, but a reservation of jury power.
It limits judicial power only to the extent that the claimed judicial
power infringes on the province of the jury.”).
39
Alleyne, 570 US at 129-130 (Roberts, C.J., dissenting).
40
The Bill of Rights: Creation and Reconstruction, p 83.
41
Amar, The Bill of Rights as a Constitution, 100 Yale L J
1131, 1193 (1991) (“[I]t was widely believed in late eighteenthcentury America that the jury, when rendering a general verdict,
could take upon itself the right to decide both law and fact.”);
Smith, The Historical and Constitutional Contexts of Jury Reform, 25 Hofstra L Rev 377, 446-448 (1996) (“In contrast to the
traditional English jury, American juries were often granted the
authority to resolve issues of law as well as issues of fact. This
authority was recognized in constitutions, statutes, and judicial
decisions following the Revolution. Furthermore, it was emphasized in a variety of celebrated eighteenth century cases involving
political crimes during English rule of the colonies.”); Warshawsky,
Opposing Jury Nullification: Law, Policy, and Prosecutorial Strategy, 85 Geo L J 191, 198 (1996) (“Although criminal juries in England . . . possessed the raw power to ignore the law as given by
the judge, they never acquired the legal right to do so. In America,
by contrast, the right of the jury independently to decide questions of law was widely recognized until well into the nineteenth
century.”); Kemmitt, Function Over Form: Reviving the Criminal
Jury’s Historical Role as a Sentencing Body, 40 U Mich J L Reform 93, 95 (2006) (“The version of the jury adopted by the Founders largely mirrored the English archetype, but included a few

App. 47
John Jay, in Georgia v Brailsford,42 summarized the
jury’s power:
It may not be amiss, here, gentlemen, to
remind you of the good old rule, that on questions of fact, it is the province of the jury, on
questions of law, it is the province of the court,
to decide. But it must be observed, that by the
same law, which recognizes this reasonable
distribution of jurisdiction, you have, nevertheless, a right to take upon yourselves to
judge of both, and to determine the law as well
as the fact in controversy.
An important way in which a jury might decide the law
was by jury nullification. Jury nullification is “[a] jury’s
knowing and deliberate rejection of the evidence or refusal to apply the law either because the jury wants to
send a message about some social issue that is larger
than the case itself or because the result dictated by
law is contrary to the jury’s sense of justice, morality, or
fairness.”43 Juries used jury nullification to ameliorate
the effects of what they perceived to be unjust laws:

structural modifications. While the division of labor between
judge and jury remained the same, the American version added
the general verdict and endowed jurors with law-finding powers. . . . The adoption of a hybrid jury—one concerned with both
fact-finding and sentencing—reflected the Founders’ vision that
the jury should serve as a bulwark against government oppression and a check against an unresponsive central government.”).
42
Georgia v Brailsford, 3 US (3 Dall) 1, 4; 1 L Ed 483 (1794).
43
Black’s Law Dictionary (11th ed); see also People v Demers,
195 Mich App 205, 206; 489 NW2d 173 (1992) (“Jury nullification

App. 48
The potential or inevitable severity of sentences
was indirectly checked by juries’ assertions of a
mitigating power when the circumstances of a
prosecution pointed to political abuse of the
criminal process or endowed a criminal conviction with particularly sanguinary consequences. This power to thwart Parliament and
Crown took the form not only of flat-out acquittals in the face of guilt but of what today
we would call verdicts of guilty to lesser included offenses, manifestations of what
Blackstone described as “pious perjury” on the
jurors’ part.44
The power of jury nullification was held in high esteem
at the time of the founding—Benjamin Franklin, John
Adams, and Thomas Jefferson all spoke of jury nullification with approbation.45 The Founders took steps to
is the power to dispense mercy by nullifying the law and returning a verdict less than that required by the evidence.”).
Jury nullification is sometimes also referred to as jury mitigation. See Function Over Form, 40 U Mich J L Reform at 100
(“Jurors were unashamed of using their powers of mitigation
and frequently returned partial verdicts with a less serious
charge. . . .”).
44
Nathaniel Jones v United States, 526 US 227, 245; 119 S
Ct 1215; 143 L Ed 2d 311 (1999). See also Apprendi, 530 US at
480 n 5 (“[J]uries devised extralegal ways of avoiding a guilty verdict, at least of the more severe form of the offense alleged, if the
punishment associated with the offense seemed to them disproportionate to the seriousness of the conduct of the particular defendant.”).
45
Parmenter, Nullifying the Jury: “The Judicial Oligarchy”
Declares War on Jury Nullification, 46 Washburn L J 379, 428
n 56 (2007) (“John Adams argued, ‘It is not only [the juror’s] right,
but his duty . . . to find the verdict according to his own best

App. 49
further insulate American juries and ensure that they
could practice jury nullification:
[W]hen creating their own legal institutions,
the colonists endorsed the roles played by
the English jury—namely, mitigator of unduly
harsh sentences and populist check on a potentially unresponsive central government—
but cast aside its inelegant form. In so doing,
the colonists helped to insulate the process of
jury-based mitigation from criticism. In England, the blatant manipulation of facts by
criminal juries led critics to target the jury’s
function as mitigator. But in the United
States, such tensions were minimized through
reliance on the general verdict and by granting the jury the power to determine the law.46

understanding, judgment, and conscience, though in direct opposition to the direction of the court.’ Benjamin Franklin’s Pennsylvania Gazette commented that if jury nullification is not the law,
‘it is better than law, it ought to be law, and will always be law
wherever justice prevails.’ Thomas Jefferson remarked, ‘Were I
called upon to decide whether the people had best be omitted in
the Legislative or Judiciary department, I would say it is better
to leave them out of the Legislative. The execution of the laws is
more important than the making [of ] them.’ ”) (citations omitted;
alterations in original).
46
Function Over Form, 40 U Mich J L Reform at 103; see also
Barkow, Recharging the Jury: The Criminal Jury’s Constitutional
Role in an Era of Mandatory Sentencing, 152 U Penn L Rev 33,
36 (2003) (“This power to mitigate or nullify the law in an individual case is no accident. It is part of the constitutional design—
and has remained part of that design since the Nation’s founding.”).

App. 50
Understandably, there has been considerable debate about whether jury nullification is desirable.47 Indeed, courts have consistently held that defendants are
not entitled to a jury instruction regarding nullification.48 This Court stated in People v Bailey,49 “The jury
‘has the power to acquit on bad grounds, because the
government is not allowed to appeal from an acquittal
by a jury. But jury nullification [like the jury’s ability
to convict a defendant of a lesser crime than the evidence proves] is just a power, not also a right. . . .’ ”50
Yet, though it is only a power, it is a well-established
power that this Court has consistently recognized—
”Juries are not held to any rules of logic nor are they
required to explain their decisions. The ability to convict or acquit another individual of a crime is a grave
responsibility and an awesome power. An element of
47

Compare McKnight, Jury Nullification as a Tool to Balance the Demands of Law and Justice, 2013 BYU L Rev 1103,
1110 (2013), and Opposing Jury Nullification, 85 Geo L J 191.
48
See, e.g., Sparf v United States, 156 US 51, 99; 15 S Ct 273;
39 L Ed 343 (1895); United States v Krzyske, 836 F2d 1013, 1021
(CA 6, 1988) (“The right of a jury, as a buffer between the accused
and the state, to reach a verdict despite what may seem clear law
must be kept distinct from the court’s duty to uphold the law and
to apply it impartially. . . . To have given an instruction on nullification would have undermined the impartial determination of
justice based on law.”); Demers, 195 Mich App at 208.
49
People v Bailey, 451 Mich 657; 549 NW2d 325 (1996),
amended on denial of reh’g 453 Mich 1204 (1996).
50
Id. at 671 n 10, quoting United States v Kerley, 838 F2d
932, 938 (CA 7, 1988) (alterations in original). See also People v
Ward, 381 Mich 624, 628; 166 NW2d 451 (1969) (“A jury may have
the power but it has no right to disregard the court’s instructions.”).

App. 51
this power is the jury’s capacity for leniency.”51 Regardless of whether jury nullification is good policy, or
whether there is a right to jury nullification, the fact
remains that juries at the time of the founding and at
present have the power to exercise jury nullification.
But this power is rendered nearly meaningless if
consideration of acquitted conduct is permissible. If a
jury finds a defendant guilty of a lesser offense and acquits him or her of a greater offense, such jury nullification loses nearly all practical effect if the judge can
consider the acquitted conduct at sentencing. As Judge
Gilbert Merritt explained:
Allowing the use of acquitted conduct at
sentencing also eviscerates the jury’s longstanding power of mitigation, a close relative
of the power of jury nullification. . . . A jury
cannot mitigate the harshness of a sentence it
deems excessive if a sentencing judge may use
acquitted conduct to sentence the defendant

51

People v Vaughn, 409 Mich 463, 466; 295 NW2d 354 (1980);
Hamilton v People, 29 Mich 173, 189-190 (1874) (“It is true that
juries in criminal cases cannot properly find a conviction against
their consciences. It is also true that they cannot be questioned or
held responsible upon their verdict, nor called on to explain its
reasons. Whether those reasons are based on a doubt or disbelief
of evidence, or on a rejection of the exposition of law given by the
court, they are equally beyond review.”). See also United States v
Dougherty, 154 US App DC 76, 473 F2d 1113 (1972) (“The pages
of history shine on instances of the jury’s exercise of its prerogative to disregard uncontradicted evidence and instructions of the
judge.”).

App. 52
as though he had been convicted of the more
severe offense.52
Instead of acquitting a defendant of certain offenses
and convicting of others, a jury would have to exercise
jury nullification by the more extreme path of acquitting the defendant on all counts. Consideration of acquitted conduct at sentencing appears to conflict with
the Founders’ views on jury nullification, given that it
would severely limit that check on the government’s
power.
C. DISTINGUISHING OFFENSE
ELEMENTS FROM SENTENCING FACTORS
I also believe that the consideration of acquitted
conduct at sentencing leads to anomalous results.53
Specifically, it involves relabeling a particular fact
from an element of a crime at the trial stage, which the
jury must find beyond a reasonable doubt, to a mere
“sentencing factor” at the sentencing stage, which the
judge can find by a preponderance of the evidence. In
McMillan v Pennsylvania,54 the Supreme Court distinguished for the first time between an element of an offense and “a sentencing factor that comes into play
only after the defendant has been found guilty . . .
52

White, 551 F3d at 394 (Merritt, J., dissenting).
Faust, 456 F3d at 1351 (Barkett, J., concurring) (“The majority believes that, in a single proceeding, Faust’s possession of
ecstacy [sic] may be both an element of a crime and a sentencing
fact provable by a mere preponderance of the evidence. This
anomaly is hardly justified. . . .”).
54
McMillan, 477 US at 86.
53

App. 53
beyond a reasonable doubt.” “Much turns on the determination that a fact is an element of an offense rather
than a sentencing consideration, given that elements
must be charged in the indictment, submitted to a jury,
and proven by the Government beyond a reasonable
doubt.”55 And, as we have noted, “The failure to have
the jury find an element establishing ‘a distinct and
aggravated crime,’ not the resulting sentence, is the
constitutional deficiency[.]”56
The United States Supreme Court has provided
guidance on several occasions regarding how to distinguish between a sentencing factor and an element. The
Supreme Court has looked to a variety of factors, including tradition, statutory structure, common practice, the risk of unfairness if a fact were to be decided
by a jury, legislative history, and the effect the fact
would have on the sentence. For example, in Nathaniel
Jones v United States,57 the question was whether serious bodily injury was an element defining an aggravated form of the underlying crime or a sentencing
factor. The Court considered the structure of the statute as well as other provisions, reasoning that Congress likely did not intend for “serious bodily injury” to
be an element in certain offenses but only a sentencing
55

Nathaniel Jones, 526 US at 232. See also Apprendi, 530
US at 500 (“[I]n order for a jury trial of a crime to be proper, all
elements of the crime must be proved to the jury (and . . . proved
beyond a reasonable doubt). Thus, it is critical to know which
facts are elements.”) (citations omitted).
56
Lockridge, 498 Mich at 384 (citations omitted).
57
Nathaniel Jones, 526 US 227.

App. 54
factor in the offense in the case at hand.58 The Court
also looked to similar state statutes, which used “serious bodily injury” as an element of an offense rather
than as a sentencing factor.59 Thus, the Court held that
serious bodily injury was an element.60 Similarly, in
Castillo v United States,61 the Court turned to the statutory structure, tradition, the risk of unfairness if decided by a jury, legislative history, and the effects that
the factual finding would have on the sentence. Notably, as for tradition, Castillo noted that “[t]raditional
sentencing factors often involve either characteristics
of the offender, such as recidivism, or special features
of the manner in which a basic crime was carried out
(e.g., that the defendant abused a position of trust or
brandished a gun).”62

58

Id. at 236.
Id. at 236-237.
60
Id. at 239, 251-252.
61
Castillo v United States, 530 US 120; 120 S Ct 290; 147 L
Ed 2d 94 (2000).
62
Id. at 126. See also Almendarez-Torres v United States,
523 US 224, 228; 118 S Ct 1219; 140 L Ed 2d 350 (1998) (“We
therefore look to the statute before us and ask what Congress intended. Did it intend the factor that the statute mentions, the
prior aggravated felony conviction, to help define a separate
crime? Or did it intend the presence of an earlier conviction as a
sentencing factor, a factor that a sentencing court might use to
increase punishment? In answering this question, we look to the
statute’s language, structure, subject matter, context, and history—factors that typically help courts determine a statute’s objectives and thereby illuminate its text.”).
59

App. 55
The Court further refined the definition of an element in Apprendi v New Jersey63 and Alleyne v United
States.64 In Apprendi, the Supreme Court noted the
link between an element of the crime and punishment:
“Other than the fact of a prior conviction, any fact that
increases the penalty for a crime beyond the prescribed
statutory maximum must be submitted to a jury, and
proved beyond a reasonable doubt.”65 In Alleyne, the
Supreme Court extended Apprendi’s holding to judgefound facts that increased the mandatory minimum,
not just the maximum as Apprendi had held—“a fact
increasing either end of the range produces a new penalty and constitutes an ingredient of the offense.”66 But
Alleyne noted that it did not restrict fact-finding
63

Apprendi, 530 US 466.
Alleyne, 570 US 99.
65
Apprendi, 530 US at 490. See also Nathaniel Jones, 526
US at 252 (Stevens, J. concurring) (“[I]t is unconstitutional for a
legislature to remove from the jury the assessment of facts that
increase the prescribed range of penalties to which a criminal
defendant is exposed.”); id. at 253 (Scalia, J., concurring) (“I set
forth as my considered view, that it is unconstitutional to remove
from the jury the assessment of facts that alter the congressionally prescribed range of penalties to which a criminal defendant
is exposed.”); Apprendi, 530 US at 503 (Thomas, J., concurring)
(determining that the value of stolen property “was an element
[of larceny] because punishment varied with value”); Blakely, 542
US at 304 (“When a judge inflicts punishment that the jury’s verdict alone does not allow, the jury has not found all the facts
‘which the law makes essential to the punishment,’ Bishop, supra,
§ 87, at 55, and the judge exceeds his proper authority.”).
66
Alleyne, 570 US at 112. See also Apprendi, 530 US at 501
(Thomas, J., concurring) (“This authority establishes that a
‘crime’ includes every fact that is by law a basis for imposing or
increasing punishment. . . .”).
64

App. 56
necessary to exercising discretion in setting a sentence
within legal limits; it only required that facts that increase the penalty be submitted to a jury—“Any fact
that, by law, increases the penalty for a crime is an ‘element’ that must be submitted to the jury and found
beyond a reasonable doubt.”67
At the trial stage, each charged crime consists of
its requisite elements. These elements must be found
by a jury beyond a reasonable doubt.68 But, when acquitted conduct is considered, the rug is pulled out
from under a defendant at the sentencing stage. The
defendant then discovers that the elements that the
jury found were not established beyond a reasonable
doubt are still going to be considered against him or
her; they are suddenly no longer elements but now reappear as sentencing factors.69
In other words, if the prosecutor fails to establish
a fact as an element at trial, the prosecutor gets a second bite at the apple: if the prosecutor can establish
the fact by a preponderance of the evidence, then the
fact can still dramatically affect the defendant’s sentence. Take, for example, the instant case—though
67

Alleyne, 570 US at 103.
Nathaniel Jones, 526 US at 232.
69
I note that the Supreme Court has rejected attempts to
evade the Sixth Amendment by merely changing a label. Haymond, 588 US at ___ (opinion of Gorsuch, J.); slip op at 12 (“Our
precedents, Apprendi, Blakely, and Alleyne included, have repeatedly rejected efforts to dodge the demands of the Fifth and Sixth
Amendments by the simple expedient of relabeling a criminal
prosecution a ‘sentencing enhancement.’ ”).
68

App. 57
defendant was acquitted of open murder, the judge
found by a preponderance of the evidence at sentencing that defendant had killed the victim, i.e., had committed the homicide. And on that basis, the trial court
sentenced him to 240 to 400 months in prison, i.e., a
minimum sentence more than three times greater
than the upper limit of his guidelines minimum sentence range of 76 months.
But treating a finding that defendant killed the
victim as a sentencing factor is counterintuitive. Applying the analysis from Nathaniel Jones and Castillo,
it cannot seriously be contended that killing the victim,
i.e., causing the victim’s death, would be a mere sentencing factor. Unsurprisingly, tradition70 and common
practice71 indicate that causing the death of the victim
70

Blackstone defined manslaughter as “the unlawful killing
of another without malice, either express or implied; which may
be either voluntarily, upon a sudden heat, or involuntarily, but in
the commission of some unlawful act,” and murder as “ ‘when a
person of sound memory and discretion unlawfully killeth any
reasonable creature in being, and under the king’s peace, with
malice aforethought, either express or implied.’ ” 4 Blackstone,
Commentaries on the Laws of England, pp **191, 195 (citation
omitted).
71
Many states have adopted the Model Penal Code in whole
or in part. Under the Model Penal Code, criminal homicide—
which can constitute murder, manslaughter, and negligent homicide depending on a defendant’s mens rea—occurs when a person
“causes the death of another human being,” i.e., kills another human being. Model Penal Code, § 210.1 (2018); Merriam-Webster’s
Collegiate Dictionary (11th ed) (defining “kill,” in relevant part,
as to “cause the death of ”). Also, our Legislature and Supreme
Court have deemed killing an element of any of the forms of murder or manslaughter for which defendant could have been convicted. MCL 750.316 (defining first-degree murder); People v

App. 58
is an element of a crime. And as is evidenced by the
fact that the jury was already tasked with deciding
whether defendant had committed open murder, it
does not risk unfairness to have a jury decide whether
the defendant killed the victim. All these considerations support the rather uncontroversial notion that
killing the victim is an element of a crime rather than
a mere sentencing factor. The important distinction
that the United States Supreme Court has identified
between offense elements and sentencing factors is
much ado about nothing if a prosecutor can convert an
offense element (requiring proof beyond a reasonable
doubt) to a sentencing factor (requiring proof by a preponderance of the evidence), resulting in a sentence
similar to the one the defendant would have received
if he or she had been convicted of the greater crime.72
This, too, counsels against consideration of acquitted
conduct at sentencing.

Mendoza, 468 Mich 527, 534; 664 NW2d 685 (2003) (defining second-degree murder under MCL 750.317 as including, in relevant
part, “(1) death, (2) caused by defendant’s act”); id. at 535 (defining
voluntary manslaughter, in relevant part, as “ ‘[t]he act of killing’ ”) (citation omitted); id. at 536 (defining involuntary manslaughter to include “killing”).
72
This is contrary to the statement that “[m]uch turns on the
determination that a fact is an element of an offense rather than
a sentencing consideration. . . .” Nathaniel Jones, 526 US at 232.

App. 59
D. DIFFERENT BURDENS OF PROOF DO NOT
RENDER CONSIDERATION OF ACQUITTED
CONDUCT COMPATIBLE WITH AN ACQUITTAL
Proponents of the use of acquitted conduct argue
that a judicial finding of guilt is not necessarily incompatible with a jury acquittal because different burdens
of proof are involved in each determination. In other
words, the proponents argue that acquittals are not
proclamations of innocence but only findings that there
was not proof of guilt beyond a reasonable doubt.73
I find this argument unpersuasive. First, while an
acquittal might mean that a jury was convinced by a
preponderance of the evidence but not beyond a reasonable doubt, that is not certain; it is also possible
that a jury acquitted believing that the evidence
did not meet even the lower preponderance-of-theevidence standard.74 The prosecutor should not receive

73

See, e.g., post at 3-4 (“To the extent that the majority’s position implies that a sentencing court’s consideration of conduct
underlying an acquitted charge directly contradicts a jury’s acquittal decision, there is no logical anomaly in the trial court making a factual finding that may have been rejected by the jury at
trial. An acquittal means only that the jury held a reasonable
doubt as to the defendant’s guilt of that crime, not that the underlying conduct did not occur.”); Watts, 519 US at 156-157.
74
Doerr, Not Guilty? Go to Jail. The Unconstitutionality of
Acquitted-Conduct Sentencing, 41 Colum Hum Rts L Rev 235, 261262 (2009) (“Allowing a judge to enhance a defendant’s sentence
because the jury ‘has not said that the defendant is innocent, either’ eviscerates the policy and purpose of the Sixth Amendment
jury-trial guarantee, especially because an acquittal is the only
action a jury can take to absolve a defendant of guilt. . . . The
proper solution to this problem is not to ignore the fact that a

App. 60
the benefit of this ambiguity. Second, the logic that
there might be evidence beyond a preponderance but
not beyond a reasonable doubt skirts the issue. As
Judge Patricia Millett explained:
The problem with relying on that distinction
in this setting is that the whole reason the
Constitution imposes that strict beyond-areasonable-doubt standard is that it would be
constitutionally intolerable, amounting “to a
lack of fundamental fairness,” for an individual to be convicted and then “imprisoned for
years on the strength of the same evidence as
would suffice in a civil case.” In re Winship,
[397 US 358, 364; 90 S Ct 1068; 25 L Ed 2d
368 (1970)]. In other words, proof beyond a
reasonable doubt is what we demand from the
government as an indispensable precondition
to depriving an individual of liberty for the alleged conduct. Constructing a regime in which
the judge deprives the defendant of liberty on
the basis of the very same factual allegations
that the jury specifically found did not meet
our constitutional standard for a deprivation
of liberty puts the guilt and sentencing halves
of a criminal case at war with each other.75
For this reason, finding elements of a crime only by a
preponderance of the evidence is unconstitutional,
even if there is a possibility that it is logically consistent with an acquittal.
jury’s verdict of acquittal is ambiguous and punish the defendant
by interpreting that verdict as ‘maybe innocent.’ ”).
75
Bell, 420 US App DC at 391 (Millett, J., concurring).

App. 61
Moreover, it is important to keep in mind the practical reality of sentencing. According to the Supreme
Court, “The dispositive question . . . ‘is one not of form,
but of effect.’ ”76 The reality is that when judges find by
a preponderance of the evidence that a defendant committed the conduct for which he was acquitted, that defendant can, and often does, serve a longer prison
sentence because of it.77 But this seems counterintuitive—“In effect, juries rule on ‘legal guilt, guilt determined by the highest standard of proof we know,
beyond a reasonable doubt. And when a jury acquit[s]
a defendant based on that standard, one would have
expected no additional criminal punishment would
follow.’ ”78 In addition to a longer sentence, the defendant will also face additional stigma.79 Regardless of
76

Ring v Arizona, 536 US 584, 602; 122 S Ct 2428; 153 L Ed
2d 556 (2002), quoting Apprendi, 530 US at 494.
77
Bell, 420 US App DC at 392 (Millett, J., concurring) (“The
other explanation commonly proffered is that, as long as the final
sentence does not exceed the statutorily authorized maximum
length of incarceration for the offense of conviction, the defendant
is only being sentenced for the crime he committed. That blinks
reality when, as here, the sentence imposed so far exceeds the
Guidelines range warranted for the crime of conviction itself that
the sentence would likely be substantively unreasonable unless
the acquitted conduct is punished too.”).
78
Pimental, 367 F Supp 2d at 150 (alteration in original).
79
Faust, 456 F3d at 1350-1351 (Barkett, J., concurring)
(“[T]the reasonable doubt standard is warranted when imputations of criminal conduct are at stake not only ‘because of the possibility that [an individual] may lose his liberty upon conviction,’
but also ‘because of the certainty that he would be stigmatized. . . .’
Even though Faust’s maximum possible sentence was not increased by the sentencing judge’s independent findings—three
separate findings of actual, criminal conduct—they certainly do

App. 62
whether an acquittal and consideration of acquitted
conduct are logically inconsistent, the practical reality
of sentencing calls into question the constitutionality
of relying on acquitted conduct.
III.

CONCLUSION

Although I agree with the majority that due process precludes consideration of acquitted conduct at
sentencing under a preponderance-of-the-evidence standard, I believe it important to point out that defendant’s
sentence also violates the Sixth Amendment because it
would not be reasonable but for the judge-found fact
that defendant committed the conduct for which he
was acquitted. Finally, for the above reasons, I have serious concerns regarding whether the consideration of
acquitted conduct can ever comply with the Sixth
Amendment.
David F. Viviano

change the quantity and quality of the stigma he faces.”) (citations omitted; alterations in original).

App. 63
STATE OF MICHIGAN
SUPREME COURT
PEOPLE OF THE
STATE OF MICHIGAN,
Plaintiff-Appellee,
No. 152934

v
ERIC LAMONTEE BECK,
Defendant-Appellant.
CLEMENT, J. (dissenting).

The majority concludes that the trial court violated defendant’s due-process rights during sentencing
when it found by a preponderance of the evidence that
defendant had caused a death—despite defendant’s acquittal of the charge of open murder—and, relying on
this finding, imposed a sentence above the recommended guidelines range. I dissent because I believe
that the sentencing court properly considered all “circumstance[s] which aid[ed] the sentencing court’s construction of a more complete and accurate picture of
. . . defendant’s background, history, or behavior. . . .”
People v Ewing (After Remand), 435 Mich 443, 472; 458
NW2d 880 (1990) (opinion by BOYLE, J.).
In Michigan, sentencing is “a matter for the exercise of judicial discretion [which] requires an individualized factual basis” of the defendant’s personal,
criminal, and mental history, as well as the circumstances of the crime. People v Lee, 391 Mich 618, 639;

App. 64
218 NW2d 655 (1974). See also MCL 771.14 (requiring
preparation of a presentence investigation report that
“inquire[s] into the antecedents, character, and circumstances of the [defendant]” to aid the trial court in
its sentencing determination). This individualized consideration guides the sentencing court in imposing a
sentence within the range of punishments set by the
Legislature that is proportionate to the manner in
which the particular offense was committed and to the
background of the defendant. See People v Milbourn,
435 Mich 630, 651; 461 NW2d 1 (1990) (“[T]he Legislature, in setting a range of allowable punishments for a
single felony, intended persons whose conduct is more
harmful and who have more serious prior criminal records to receive greater punishment than those whose
criminal behavior and prior record are less threatening
to society.”). Today, the majority restricts a sentencing
court’s access to information, a restriction that is not
mandated by federal or state law and that is antithetical to this state’s tradition of providing the broadest
range of information to consider at sentencing. See Lee,
391 Mich at 639. In so doing, the majority endorses an
overbroad reading of the presumption of innocence and
rejects this Court’s decision in Ewing without adequate justification.
The majority declares that the presumption of innocence prevents a trial court from considering at sentencing conduct underlying a charge for which the
defendant was acquitted. This declaration expands the
presumption of innocence beyond its function. The presumption of innocence is rooted in constitutional due

App. 65
process, and it requires that the government prove beyond a reasonable doubt every element of a criminal
offense. McMillan v Pennsylvania, 477 US 79, 85; 106
S Ct 2411; 91 L Ed 2d 67 (1986). The presumption of
innocence mandates only that a defendant cannot be
convicted and sentenced for a crime unless the elements of that crime were proved beyond a reasonable
doubt. Once the prosecutor overcomes the presumption
of innocence by obtaining a conviction, the presumption does not prevent the trial court from considering
the defendant’s relevant conduct when imposing a sentence, even if that same conduct supported an acquitted charge. The presumption does limit the trial court’s
sentencing discretion to the statutory penalties set by
the Legislature for the convicted offenses, preventing
the trial court from sentencing the defendant as if he
had been convicted for the crime of which he was acquitted. Specifically, the trial court may not impose an
additional concurrent or consecutive sentence for the
acquitted charge and may not leave the confines of the
continuum of sentences available for the convicted offenses. Accordingly, the trial court does not violate the
presumption of innocence by considering conduct underlying an acquitted charge when sentencing the defendant for convicted offenses because the defendant is
not being sentenced as if he had been convicted of the
acquitted crime; it is merely a valid consideration of
the manner in which the defendant committed the offenses for which he was convicted. See Milbourn, 435
Mich at 651.

App. 66
To the extent that the majority’s position implies
that a sentencing court’s consideration of conduct underlying an acquitted charge directly contradicts a
jury’s acquittal decision, there is no logical anomaly in
the trial court making a factual finding that may have
been rejected by the jury at trial. An acquittal means
only that the jury held a reasonable doubt as to the
defendant’s guilt of that crime,1 not that the underlying conduct did not occur.2 At sentencing, the standard
of proof is lower, requiring only that the facts considered by the trial court are supported by a preponderance of the evidence. Because of this lower standard of
1

As stated in Ewing (After Remand), 435 Mich at 452 (opinion by BRICKLEY, J.):
Any number of reasons not related to the defendant’s
factual guilt or innocence may be hypothesized to explain a jury’s decision to acquit. For example, a jury
may acquit a factually guilty defendant because the
prosecution was, for one reason or another, unable to
present its best evidence, as would be the case where a
strong witness died or disappeared before trial, yet sufficient evidence remained to persuade the prosecutor to
proceed to trial. To take another example, it is also
true, unfortunately, that a jury may acquit a factually
guilty defendant because of confusion with regard to
the judge’s instructions.
2
I have chosen to avoid referring to such conduct as “acquitted conduct” within this opinion because I believe that label is
misleading. A jury may acquit the defendant of a criminal charge,
but—absent the use of a special verdict form—the jury does not
acquit the defendant of the underlying conduct. Accordingly—and
although I acknowledge that the United States Supreme Court
has used the term “acquitted conduct” as well—I believe that it is
more precise to use the phrase “conduct underlying an acquitted
charge.”

App. 67
proof, the trial court can properly make a finding at
sentencing that may have been rejected by the jury at
trial.
Here, the trial court was statutorily empowered to
sentence defendant to any term of years up to life imprisonment for defendant’s conviction of being a felon
in possession of a firearm (felon-in-possession). Although felon-in-possession is generally punishable
by up to five years’ imprisonment, MCL 750.224f(5),
defendant’s status as a fourth-offense habitual offender, MCL 769.12(1)(b), raised his maximum potential sentence to life imprisonment. The guidelines
minimum sentence range for defendant’s felon-inpossession conviction was calculated to be 22 to 76
months’ imprisonment. But at sentencing, the trial
court found by a preponderance of the evidence that
defendant had, while committing felon-in-possession,
caused the death of Hoshea Pruitt. On the basis of this
finding regarding the manner in which defendant committed felon-in-possession, the trial court sentenced
defendant to 240 to 400 months’ imprisonment. This
sentence was within the range of permissible sentences for felon-in-possession authorized by the Legislature in MCL 750.224f(5) and MCL 769.12(1)(b).
Contrary to the majority’s position, defendant was not
sentenced as if he had been convicted of the crime of
murder, but rather as if he had been convicted of felonin-possession as a fourth-offense habitual offender
with the trial court further determining by a preponderance of the evidence that defendant had caused
a death while doing so. There is no doubt that a

App. 68
sentencing court may generally consider facts relevant
to how the defendant committed the offense, and there
is no basis in the law to distinguish this particular factual finding from all other information relevant to
the manner in which defendant committed felon-inpossession.
I suspect that, in this case, the majority feels like
defendant is being sentenced for an offense he was acquitted of committing because the offense for which defendant was convicted has the same maximum penalty
as the offense for which defendant was acquitted. The
fact that MCL 769.12(1)(b) increases defendant’s available maximum punishment for felon-in-possession to
life imprisonment—the same maximum punishment
available for murder—may make it seem like defendant is being sentenced for an offense for which he was
acquitted.3 But this is not an accurate observation.
Consider instead a situation wherein a defendant is
acquitted of murder, but convicted of second-degree
home invasion. In this scenario, the recommended
minimum sentence range for the particular defendant
is 22 to 36 months’ imprisonment. The trial court is not
bound to follow this advisory range, People v Lockridge,
498 Mich 358, 391-392; 870 NW2d 502 (2015), but it
is restricted by the statutory penalty for the convicted offense of second-degree home invasion. Seconddegree home invasion may be punished by up to 15
3

To the extent that some may find this troubling, the solution lies with the Legislature to narrow statutory penalties for
crimes or to alter the substantial increase of statutory penalties
in repeat-offender statutes like MCL 769.12.

App. 69
years’ imprisonment, MCL 750.110a(6), although MCL
769.34(2)(b) prohibits the trial court from imposing a
minimum sentence that exceeds two-thirds of the statutory maximum sentence—as applied here, 10 years’
imprisonment. In considering what sentence to impose
in this 15-year continuum, the trial court is not prohibited from making factual findings regarding the manner in which defendant committed home invasion,
even if those facts may have supported the acquitted
charge of murder. As long as a preponderance of the
evidence supports its conclusions, the trial court could
find that the defendant killed a person in the course of
committing home invasion and rely on this information
to impose the highest sentence possible—10 to 15 years’
imprisonment, as established by MCL 750.110a(6) and
MCL 769.34(2)(b). The presumption of innocence does
not prohibit this. The presumption of innocence only
prevents the trial court from sentencing the defendant
as if he had been convicted of murder, which carries a
maximum penalty of life imprisonment.4 As long as the
trial court imposes a sentence within the 15-year statutory maximum of second-degree home invasion whose
minimum does not violate MCL 769.34(2)(b), it is inaccurate to say that the defendant was sentenced as if he
had committed murder.

4

Specifically, first-degree murder “shall be punished by imprisonment in the state prison for life without eligibility for
parole,” MCL 750.316(1), and second-degree murder “shall be
punished by imprisonment in the state prison for life, or any term
of years, in the discretion of the court trying the same,” MCL
750.317.

App. 70
In sum, I disagree with the majority that the presumption of innocence prevents the trial court from
considering at sentencing conduct that supported
charges for which the defendant was acquitted.5 There
is a precise difference between sentencing a defendant
as if he had been convicted of a crime for which he was
acquitted and sentencing a defendant for a convicted
offense while considering conduct that supported the
acquitted charge, as this Court acknowledged nearly
30 years ago in Ewing. In concluding otherwise, the
majority inaccurately dismisses Ewing’s holding as
“murky at best,”6 concluding that although Justice
5

I would also have held that the consideration of such conduct does not violate a defendant’s Sixth Amendment rights, a
conclusion that is consistent with the decision of every federal circuit court. See, e.g., United States v Gobbi, 471 F3d 302, 314 (CA
1, 2006), abrogated in part on other grounds as stated in United
States v Nagell, 911 F3d 23, 31 n 8 (CA 1, 2018); United States v
Vaughn, 430 F3d 518, 525-527 (CA 2, 2005); United States v Hayward, 177 F Appx 214, 215 (CA 3, 2006); United States v Ashworth, 139 F Appx 525, 527 (CA 4, 2005); United States v Farias,
469 F3d 393, 399-400 (CA 5, 2006); United States v White, 551
F3d 381, 383-384 (CA 6, 2008); United States v Price, 418 F3d 771,
787-788 (CA 7, 2005); United States v High Elk, 442 F3d 622, 626
(CA 8, 2006); United States v Mercado, 474 F3d 654, 655-656 (CA
9, 2007); United States v Magallanez, 408 F3d 672, 684-685 (CA
10, 2005); United States v Duncan, 400 F3d 1297, 1304-1305 (CA
11, 2005); United States v Dorcely, 372 US App DC 170; 454 F3d
366, 371 (2006).
6
The majority also criticizes Ewing on the basis that this
Court has never cited it for a binding legal rule. While this is correct, I would note that the Court of Appeals has repeatedly done
so in its published decisions. See, e.g., People v Golba, 273 Mich
App 603, 614; 729 NW2d 916 (2007) (“A trial court may consider
facts concerning uncharged offenses, pending charges, and even
acquittals, provided that the defendant is afforded the opportunity

App. 71
BOYLE’s opinion provided three votes supporting the
practice of considering acquitted conduct at sentencing, Justice BRICKLEY’s lead opinion did not similarly
bless the practice.7
I disagree. In Ewing, when sentencing the defendant for first-degree criminal sexual conduct, the trial
court found that the defendant “ ‘ha[d] carried on a
course of conduct involving attacks on young women
over a periods [sic] of five years.’ ” Ewing (After Remand), 435 Mich at 466 (opinion by BOYLE, J.). In so
doing, the trial court relied on information that supported pending charges, prior convictions, and uncharged offenses against the defendant that had been
presented in the presentencing information report and
during a Golochowicz8 hearing. Id. at 465-467. Justice
to challenge the information and, if challenged, it is substantiated
by a preponderance of the evidence.”); People v Granderson, 212
Mich App 673, 679; 538 NW2d 471 (1995) (“A majority of the justices of our Supreme Court . . . subscribe to the view that a prior
acquittal, without more, is not sufficient reason to preclude the
court from taking into account the facts underlying that acquittal
at sentencing.”); People v Coulter (After Remand), 205 Mich App
453, 456; 517 NW2d 827 (1994) (“A sentencing court is allowed to
consider the facts underlying uncharged offenses, pending
charges, and acquittals.”); People v Newcomb, 190 Mich App 424,
427; 476 NW2d 749 (1991), overruled on other grounds People v
Randolph, 466 Mich 532, 586 (2002) (“A sentencing judge may
also consider the facts underlying uncharged offenses, pending
charges, and acquittals.”). And this Court has never released an
opinion or order undermining this Court’s decision in Ewing.
7
Justices LEVIN and CAVANAGH would not have reached the
merits of the decision; Justice ARCHER would have concluded that
conduct underlying acquitted charges could not be considered.
8
People v Golochowicz, 413 Mich 298; 319 NW2d 518 (1982).

App. 72
BRICKLEY, along with three other justices, agreed to remand the case to the trial court with the following instruction:
On remand, the sentencing judge should
indicate with greater specificity which facts
he relied on in imposing sentence. If the judge
determines that he relied on allegations
against the defendant which did not result in
a conviction, then the defendant must be afforded an opportunity to challenge the accuracy of those allegations. If the judge then
determines that the accuracy of those facts
has not been determined by a preponderance
of the evidence, the defendant should be resentenced. Finally, if a resentencing is ordered, the judge will be entitled to rely on
testimony containing facts underlying an acquittal which was obtained after the original
sentencing in this case, subject to the defendant’s right to dispute the accuracy of that testimony. [Id. at 446 (opinion by BRICKLEY, J.)
(emphasis added).]9

9

The majority relies on the fact that Justice BRICKLEY provided the fourth vote for the disposition of a remand to support
its conclusion that Justice BRICKLEY’s approach to the consideration of acquitted conduct at sentencing was not consistent with
the approach of Justices BOYLE, RILEY, and GRIFFIN (the dissenting justices who would have instead reinstated the trial court’s
sentence). This difference in disposition does not undermine the
fact that Justices BOYLE, RILEY, GRIFFIN, and BRICKLEY agreed
that consideration of conduct underlying an acquitted charge is
appropriate. The divergence between the dispositions concerned
whether the defendant in that particular case had already received sufficient opportunity to refute the information on which

App. 73
The order expressly permits the trial court to rely
on the defendant’s conduct underlying charges for
which, by the time of the resentencing, the defendant
had been acquitted. Moreover, Justice BRICKLEY “agree[d]
with Justice BOYLE and a number of federal decisions
that the mere fact of a prior acquittal of charges whose
underlying facts are properly made known to the trial
judge is not, without more, sufficient reason to preclude the judge from taking those facts into account at
sentencing.” Id. at 451. Yet, the majority asserts that
Justice BRICKLEY’s opinion is “hard[ ] to parse.” The majority specifically cites Justice BRICKLEY’s statement
that this Court was “not presented with the issue
whether a defendant may be punished for a crime for
which no conviction was obtained; this is clearly unconstitutional,” id. at 454, for support of its argument.
But the context of that statement demonstrates that
Justice BRICKLEY was not reneging on his earlier assertions supporting the consideration of conduct underlying acquitted charges at sentencing. In that portion of
the opinion, Justice BRICKLEY sought to establish that
the opinion did not hold “that the sentencing judge
may rely on the mere fact that the defendant was once
acquitted of, and therefore had necessarily been bound
over on, criminal charges.” Id. at 453. He emphasized
that the trial court in the case at hand made factual
findings based on testimony from the Golochowicz
hearing and trial rather than the fact of the charges
themselves. Id. at 453-454. He then stated that the
the trial court based its sentence, an issue with which we are not
presently faced.

App. 74
Court was “not presented with the issue whether a defendant may be punished for a crime for which no conviction was obtained”—referring to this concept of
punishment based on the fact of pending or acquitted
charges only—and immediately thereafter concluded
that sentencing courts “may, in the exercise of the
broad discretion conferred upon them in our sentencing scheme, consider relevant and reliable facts
about offenders when selecting appropriate punishment within the legislatively established range for offenses whose commission has been proven beyond a
reasonable doubt.” Id. at 454.
Justice BRICKLEY endorsed the same distinction
that I have made here: a defendant cannot be punished
as if the jury had found the defendant guilty of the
acquitted charge, but the trial court can consider the
defendant’s conduct underlying such a charge when
sentencing the defendant for convicted offenses.10
10

Insofar as the majority states that I “want[ ] to draw [a distinction] between sentencing a defendant more harshly based on
the conclusion that the defendant committed an offense of which
he was acquitted and sentencing a defendant ‘while considering
conduct that supported the acquitted charge,’ ” I do not. I, in fact,
agree with the majority that the trial court in this case found by
a preponderance of the evidence that defendant had committed
murder. My choice of phrase—“as if [defendant] . . . had caused a
death” rather than “as if defendant had committed murder”—is
used to emphasize that the trial court did not convict defendant
of the criminal charge of murder. The jury found defendant guilty
of felon-in-possession, and the trial court was empowered to consider conduct related to this conviction at sentencing when considering the continuum of available sentences that it could
impose. The trial court’s finding that defendant committed murder was not a finding that defendant was guilty of murder beyond

App. 75
Further, given that Justice BRICKLEY’s opinion clearly
set forth how the trial court was to consider the defendant’s conduct supporting the acquitted charges,11 it is
baffling to me how the majority can conclude that the
rule of law from Ewing is “murky at best.” Justice
BRICKLEY and Justice BOYLE, joined by Justices RILEY
and GRIFFIN, clearly supported the consideration of
conduct underlying acquitted charges at sentencing,
establishing a rule of law that this Court is bound to
follow.12 See People v Feezel, 486 Mich 184, 212; 783
a reasonable doubt but instead a finding regarding the manner in
which defendant committed felon-in-possession.
11
In the same section of the opinion, Justice BRICKLEY set
forth the proper procedure for the trial court’s consideration of
conduct supporting the defendant’s acquitted charges at sentencing:
As noted above, . . . on remand the defendant should be
able to test the accuracy of th[e] allegations [for which
the defendant was acquitted]. . . . The defendant should
not, however, be able to preclude the judge from basing
his sentence on this testimony. Since the judge on remand will be aware that a prior jury declined to find
the defendant guilty beyond a reasonable doubt in
th[at] case . . . , he may hear argument from the parties
and decide how to view this testimony in light of the
acquittal. Moreover, because of the double jeopardy
bar, the defendant will be unlikely to feel pressure not
to effectively challenge the accuracy of the allegations
underlying what will be, in the event of resentencing,
a prior acquittal. [Ewing (After Remand), 435 Mich at
454 (opinion by BRICKLEY, J.).]
12
Justice BRICKLEY’s opinion also provides the key to an issue raised by the parties on appeal but left unaddressed by the
majority: how to harmonize the ruling in Ewing with this Court’s
prior ruling in People v Grimmett, 388 Mich 590; 202 NW2d 278
(1972), overruled in part on other grounds People v White, 390

App. 76
NW2d 67 (2010) (“[T]his Court should respect precedent and not overrule or modify it unless there is substantial justification for doing so.”).
Finally, I would also note that the majority has
adopted a standard that may be problematic in application: “that due process bars sentencing courts from
finding by a preponderance of the evidence that a defendant engaged in conduct of which he was acquitted.”
Left unexplained are the parameters of what constitutes acquitted conduct. Is acquitted conduct defined
only as the exact conclusion that the defendant committed the acquitted charge? This would certainly apply to the present case, in which the trial court
expressly found that defendant had committed murder despite his having been acquitted of the crime of
Mich 245 (1973). In Grimmett, the defendant and two others
robbed a Detroit grocery store; the robbery resulted in the death
of the grocery store’s owner and the wounding of a customer. Id.
at 594. The defendant was found guilty of assault with intent to
murder as to the customer. Id. at 596. At sentencing, the trial
court found that the defendant “ ‘is certainly the same person who
murdered the other grocer’ ”—referring to the murder charges
filed, but not yet tried, against the grocery store’s owner, id. at
608—and sentenced the defendant to life imprisonment pursuant
to that finding. Id. at 596. This Court held that the trial court had
“acted improperly in assuming defendant was guilty of the murder charge when he sentenced defendant on the assault charge”
and remanded the case to the trial court for resentencing. Id. at
608. Grimmett is not inconsistent with Ewing, and this Court
need not overrule it. Grimmett forbids the assumption of guilt
based on the fact that the defendant was charged with a crime.
The trial court’s factual findings must instead be supported by
a preponderance of the evidence—the mere fact of a charge,
whether pending or acquitted, does not meet that evidentiary
standard.

App. 77
murder. But does acquitted conduct extend beyond this
ultimate conclusion to all facts that supported a charge
for which a defendant was acquitted? Could the trial
court here have safely found that defendant possessed
a weapon and initiated a confrontation that caused
Pruitt’s death as long as it stopped short of the ultimate conclusion that defendant murdered Pruitt?
What if it is unclear why the jury acquitted the defendant of the particular crime? For example, when a defendant is acquitted of a charge of felon-in-possession,
it is possible that the jury could not find beyond a reasonable doubt that the defendant possessed a weapon
or that he was a felon or both. If there is no indication
as to which element the jury found lacking, is the sentencing court prohibited from considering the facts underlying either element?
The majority’s holding may be difficult to apply,
and it directly contradicts existing precedent.13 The
13

Federal circuit courts have repeatedly held that the consideration of conduct underlying an acquitted charge does not violate constitutional authority, relying on the United States
Supreme Court cases McMillan and United States v Watts, 519
US 148; 117 S Ct 633; 136 L Ed 2d 554 (1997), to support their
conclusions. See, e.g., United States v Swartz, 758 F Appx 108,
111-112 (CA 2, 2018); White, 551 F3d 381, 384-385; United States
v Horne, 474 F3d 1004, 1006 (CA 7, 2007); United States v Jamerson, 674 F Appx 696, 699 (CA 9, 2017); United States v Maddox,
803 F3d 1215, 1220-1222 (CA 11, 2015); United States v Settles,
382 US App DC 7, 10; 530 F3d 920 (2008).
In McMillan, 477 US at 85-86, the Court held that the Due
Process Clause’s requirement of proof beyond a reasonable doubt
extends only to elements identified by the state legislature as
an element of the offense and not to sentencing factors. Though
the majority is correct that McMillan did not involve conduct

App. 78

underlying an acquitted charge, its conclusion that the finding of
sentencing factors by a preponderance of the evidence does not
violate due process is certainly relevant to the issue at hand.
Also relevant is the Court’s holding in Watts, 519 US at 157,
that “a jury’s verdict of acquittal does not prevent the sentencing
court from considering conduct underlying the acquitted charge,
so long as that conduct has been proved by a preponderance of the
evidence.” The majority relies on the Court’s statements regarding Watts in United States v Booker, 543 US 220, 240 n 4; 125 S
Ct 738; 160 L Ed 2d 621 (2005), to declare Watts unhelpful to the
issue at hand. In Booker, in which the Court was presented with
a Sixth Amendment issue, the Court reasoned that Watts was
not applicable to the Sixth Amendment issue because Watts “presented a very narrow question regarding the interaction of the
Guidelines with the Double Jeopardy Clause. . . .” Id. But Booker
did not overrule Watts and did not indicate that Watts was irrelevant to a due-process challenge. (The Watts decision not only rejected the defendants’ double-jeopardy challenge to the use of
facts underlying acquitted charges at sentencing, but also recognized the Court’s earlier holdings “that application of the preponderance standard at sentencing generally satisfies due process” in
order to conclude that a sentencing court may consider conduct
underlying acquitted charges. Watts, 519 US at 156-157.) And,
post-Booker, federal circuit courts have cited Watts in holding
that due process does not prevent the sentencing court from considering conduct underlying acquitted charges. See, e.g., Swartz,
758 F Appx at 111-112; Settles, 382 US App DC at 10.
Even if the majority is correct in its additional criticism of
McMillan and Watts, these cases have not been overruled, and
this Court is bound to follow them (although a plurality opinion
of the United States Supreme Court has recently stated that
McMillan was overruled by Alleyne v United States, 570 US 99;
133 S Ct 2151; 186 L Ed 2d 314 (2013), see United States v Haymond, 588 US ___, ___; ___ S Ct ___; ___ L Ed 2d ___ (2019)
(Docket No. 17-1672) (opinion by Gorsuch, J.); slip op at 9-10, Alleyne affected what is considered an element of a crime and what
is considered a sentencing factor; it did not undermine McMillan’s
conclusion that sentencing factors may be proven by a preponderance of the evidence). Further, even if McMillan and Watts could

App. 79
presumption of innocence does not prohibit the trial
court from considering conduct underlying acquitted
charges when sentencing a defendant for convicted offenses as long as the conduct is relevant and supported
by a preponderance of the evidence. The contrary conclusion is belied by the majority’s failure to cite any
supporting precedent for its conclusion. Accordingly, I
dissent from this Court’s reversal of the judgment of
the Court of Appeals. I would have affirmed the holding of the Court of Appeals that the trial court did not
err by considering conduct underlying defendant’s
acquitted charge but reversed insofar as the Court of
Appeals remanded this case for a Crosby14 hearing.
Pursuant to this Court’s decision in People v Steanhouse, 500 Mich 453, 460-461; 902 NW2d 327 (2017), I
would have instead remanded this case to the Court of
Appeals so that it could determine whether the trial
court abused its discretion by violating the principle of
proportionality.
Elizabeth T. Clement
Stephen J. Markman
Brian K. Zahra

be effectively distinguished from the case at hand without contradicting United States Supreme Court precedent, the majority’s
conclusion still directly contradicts this Court’s decision in Ewing.
14
United States v Crosby, 397 F3d 103 (CA 2, 2005).

App. 80
STATE OF MICHIGAN
COURT OF APPEALS
PEOPLE OF THE STATE
OF MICHIGAN,
Plaintiff-Appellee,
v.

UNPUBLISHED
November 17, 2015
No. 321806
Saginaw Circuit Court
LC No. 13-039031-FC

ERIC LAMONTEE BECK,
Defendant-Appellant.
Before: BOONSTRA, P.J., and SAAD and HOEKSTRA, JJ.
PER CURIAM.
Following a jury trial, defendant was convicted of
felon in possession of a firearm, MCL 750.224f, and
possession of a firearm during the commission of a felony (felony firearm), MCL 750.227b. He was acquitted
of murder, carrying a dangerous weapon with unlawful
intent, and two felony firearm charges. The trial court
departed from the recommended sentencing range
under the now-advisory legislative guidelines and
sentenced defendant as an habitual offender, fourth offense, MCL 769.12, to 240 to 400 months’ imprisonment for the felon in possession conviction and to a
consecutive sentence of 5 years’ imprisonment for the
felony firearm conviction. Defendant appeals as of
right. We affirm defendant’s convictions. However, in

App. 81
light of People v Steanhouse, ___ Mich App, ___; ___
NW2d ___ (2015), we remand for a Crosby1 hearing.
On June 11, 2013, Hoshea Pruitt was shot to
death. Mary Loyd-Deal, a witness who died before
trial, saw the shooting and identified defendant as the
shooter in her preliminary examination testimony,
which was presented to the jury. Loyd-Deal explained
that defendant shot Pruitt after a verbal altercation
about a woman named Rajeana Drain. The shooting
was also witnessed by Jamira Calais. Although Calais
could not identify defendant, she testified that she saw
a man in a black shirt run across the street after a man
in a white shirt was shot three or four times. She saw
the man with the black shirt with a gun. The prosecution also presented testimony from Aaron Fuse, who
testified that defendant called him a couple of days after Pruitt’s death and told Fuse that he had done
“something stupid” and shot someone while arguing
about a woman.
Defendant was charged with murder, carrying a
dangerous weapon with unlawful intent, felon in possession of a firearm, and three counts of felony-firearm.
As noted, the jury convicted defendant of felon in possession of a firearm and one count of felony-firearm,
but returned a verdict of not guilty with respect to
murder, carrying a dangerous weapon with unlawful
intent, and the remaining two counts of felony-firearm.
Defendant’s recommended minimum sentencing range
under the legislative guidelines as a fourth-habitual
1

United States v Crosby, 397 F3d 103 (CA 2 2005).

App. 82
offender, MCL 769.12, was 22 to 76 months for felon in
possession of a firearm. The trial court departed upward from this range and sentenced defendant to 240
to 400 months’ imprisonment for felon in possession of
a firearm, which was to be served consecutively to a 5
year sentence for felony-firearm. Defendant now appeals as of right.
I.

SENTENCING

On appeal, defendant raises several challenges regarding the sentence imposed. First, defendant contends that the trial court impermissibly engaged in
judicial fact-finding that increased the floor of his minimum sentencing range in violation of Alleyne v United
States, ___ US ___; 133 S Ct 2151; 186 L Ed 2d 314
(2013). Specifically, defendant asserts that the trial
court’s scoring of offense variables required the trial
court to find facts beyond those established by the jury.
Based on this required judicial fact-finding, defendant
claims that he is entitled to resentencing.
Defendant failed to raise this judicial fact-finding
argument regarding of [sic] the scoring of offense variables in the trial court, meaning that his Alleyne claim
is unpreserved and reviewed for plain error affecting
his substantial rights. See People v Lockridge, ___ Mich
___, ___; ___ NW2d ___ (2015), slip op at 30. Recently,
in Lockridge, the Michigan Supreme Court determined
that Michigan’s sentencing guidelines violate the Sixth
Amendment right to a jury trial insofar as they require
a sentencing judge to find facts at sentencing that

App. 83
mandatorily increase the floor of the recommended
minimum sentencing range under the legislative
guidelines. Id., slip op at 1-2. To remedy this constitutional defect, the Lockridge Court held that the sentencing guidelines are now “advisory.” Id. at 36.
However, while declaring the guidelines advisory, the
Lockridge Court specified that an unpreserved claim of
Alleyne error was subject to plain error analysis and
that, under this standard of review, a defendant who
received a minimum sentence that is an upward departure cannot show plain error “because the sentencing
court has already clearly exercised its discretion to impose a harsher sentence than allowed by the guidelines
and expressed its reasons for doing so on the record.”
Id., slip op at 30 & n 31. “It defies logic that the court
in those circumstances would impose a lesser sentence
had it been aware that the guidelines were merely advisory.” Id. Consequently, in this case, because defendant’s sentence was an upward departure, he cannot
show plain error and he is not entitled to resentencing
on the basis of judicial fact-finding regarding offense
variables. See id.
Next, with respect to sentencing, defendant also
argues that the trial court could not consider Pruitt’s
death when imposing a sentence because the jury
found defendant not guilty of homicide. Contrary to
these assertions, it is well-settled that a trial court may
consider all the evidence admitted at trial when determining the appropriate sentence. See People v Shavers,
448 Mich 389, 393; 531 NW2d 165 (1995). Indeed, a
trial court may consider even acquitted conduct during

App. 84
sentencing, provided that the facts are proven to the
judge by a preponderance of the evidence. See People v
Ewing, 435 Mich 443, 451-452; 458 NW2d 880 (1990)
(opinion by BRICKLEY, J.); id. at 473 (opinion by BOYLE,
J.); People v Compagnari, 233 Mich App 233, 236; 590
NW2d 302 (1998). Consequently, in this case, we see
nothing improper in the trial court’s consideration of
defendant’s role in Pruitt’s death when crafting an appropriate sentence. The evidence introduced at trial included Loyd-Beal’s identification of defendant in her
preliminary examination testimony along with other
evidence establishing defendant’s identity as the
shooter by a preponderance of the evidence. Thus, the
trial court was free to consider defendant’s responsibility for Pruitt’s death as a circumstance surrounding
defendant’s conduct when imposing the sentence for
defendant’s felon in possession conviction.
Regarding the sentence imposed, defendant also
contends that the trial court failed to justify the departure with substantial and compelling reasons. After defendant filed his appellate brief in the present case, our
Supreme Court reached a decision in Lockridge, which,
as described above, rendered the previously mandatory sentencing guidelines “only advisory.” Lockridge,
slip op at 36. Relevant to defendant’s current arguments on appeal, in holding that the guidelines were
now “advisory,” the Court specifically struck down the
requirement that a trial court articulate substantial
and compelling reasons to depart from the guidelines
range as previously required under MCL 769.34(3).
Lockridge, slip op at 29. Consequently, following

App. 85
Lockridge, we no longer consider whether a trial court
articulated substantial and compelling reason to justify a departure; rather, a departure sentence will be
reviewed on appeal for “reasonableness.” Id. Sentencing courts must still articulate justification for the departure sentence in order to facilitate appellate review;
but resentencing will only be required when a sentence
is determined to be “unreasonable.” Id.
The Lockridge Court did not elaborate on the
meaning of “reasonableness.” The phrase was, however,
recently considered by a panel of this Court. Specifically, in People v Steanhouse, this Court considered two
possible approaches to understanding “reasonableness,” and concluded that Lockridge’s adoption of a
reasonableness standard heralded a return to the proportionality principles in place before the enactment of
the legislative guidelines as set forth in People v Milbourn, 435 Mich 630; 461 NW2d 1 (1990) and its progeny. See People v Steanhouse, ___ Mich App ___, ___;
___ NW2d ___ (2015), slip op at 23-24. Under this
standard, we apply a “ ‘principle of proportionality’ test
in order to determine whether a trial court abuses its
discretion in imposing a sentence.” Id. at 23, citing Milbourn, 435 Mich at 634-636.
The principle of proportionality requires a trial
court to impose a sentence that takes “into account the
nature of the offense and the background of the offender.” Id., quoting Milbourn, 435 Mich at 651. In this
context, the sentencing guidelines serve as an advisory
“barometer,” that assists the trial court in placing a
given case on the “continuum from the least to the

App. 86
most threatening circumstances.” Id., quoting Milbourn, 435 Mich at 656-657. The trial court has discretion to depart from the sentencing guidelines when the
trial court concludes that the guidelines are disproportionate to the seriousness of the crime. Id., citing Milbourn, 435 Mich at 656-657. The court may consider a
variety of factors when sentencing, including among
others, (1) the seriousness of the offense; (2) factors not
considered by the guidelines, such as the relationship
between the victim and the aggressor, the defendant’s
misconduct while in custody, the defendant’s expressions of remorse, and the defendant’s potential for rehabilitation, and (3) factors that were inadequately
considered by the guidelines in a particular case. Id. at
24 (citation omitted).
On appeal, we review the trial court’s sentencing
decision for an abuse of discretion, and a trial court will
be said to have abused its discretion “if that sentence
violate[d] the principle of proportionality, which require[d] sentences imposed by the trial court to be proportionate to the seriousness of the circumstances
surrounding the offense and the offender.” Id. at 23,
quoting Milbourn, 435 Mich at 636.
Where there is a departure from the sentencing guidelines, an appellate court’s first inquiry should be whether the case involves
circumstances that are not adequately embodied within the variables used to score the
guidelines. A departure from the recommended range in the absence of factors not adequately reflected in the guidelines should

App. 87
alert the appellate court to the possibility that
the trial court has violated the principle of
proportionality and thus abused its sentencing discretion. Even where some departure
appears to be appropriate, the extent of the
departure (rather than the fact of the departure itself ) may embody a violation of the
principle of proportionality. [Id., quoting Milbourn, 435 Mich at 659–660.]
In this case, the trial court sentenced defendant
before the decisions in Lockridge and Steanhouse were
issued. Consequently, the trial court articulated substantial and compelling reasons for departing, rather
than focusing on the “reasonableness” of the sentence
imposed. In these circumstances, the Steanhouse
Court determined that a remand for a Crosby hearing
is the appropriate remedy. Steanhouse, slip op at 25.
Resentencing is not necessarily required incident to a
Crosby hearing; rather, at a Crosby hearing the sentencing court, now fully informed of the new sentencing regime, determines whether or not to resentence.
Lockridge, slip op at 33-36, citing Crosby, 397 F2d 117118. In other words, “the purpose of a Crosby remand
is to determine what effect Lockridge would have on
the defendant’s sentence, so that it may be determined
whether any prejudice resulted from the error.” People
v Stokes, ___ Mich App ___, ___; ___ NW2d ___ (2015),
slip op at 11. Under the new sentencing regime now in
place, a defendant may face a more severe sentence at
resentencing and, for this reason, a defendant is provided with an opportunity to avoid resentencing by
promptly notifying the trial judge that resentencing

App. 88
will not be sought. Id. at 11-12. Consequently, in keeping with Steanhouse, we remand this case for a Crosby
hearing following the procedures set forth in
Lockridge. Steanhouse, slip op at 25. Defendant may
elect to forego resentencing and must promptly notify
the trial court of this decision. Id. “If notification is not
received in a timely manner, the trial court shall continue with the Crosby remand procedure as explained
in Lockridge.” Id. (citation and quotation marks omitted).
II.

DEFENDANT’S STANDARD 4 BRIEF

In a Standard 4 brief, defendant raises three additional arguments. First, relying on MCL 769.11b, defendant argues that he was denied credit for 268 days
served before his convictions. Contrary to defendant’s
argument, the judgment of sentence clearly indicates
that he was credited with 268 days in relation to his
felony-firearm conviction. Defendant appears to believe that he was also entitled to this credit in relation
to his felon in possession sentence or that, alternatively, the credit should have instead been applied to
his felon in possession sentence rather than his felonyfirearm sentence. But, as noted, defendant’s sentences
are consecutive, not concurrent, and in these circumstances the jail credit was properly applied only to the
felony-firearm sentence which, according to the judgment of sentence, is to precede his felon in possession
sentence. See People v Cantu, 117 Mich App 399, 402404; 323 NW2d 719 (1982).

App. 89
Second, defendant argues that the evidence was
insufficient to sustain his convictions beyond a reasonable doubt. Specifically, defendant contends that the
prosecution presented no evidence to establish that defendant was present at the scene or that he possessed
a gun. Further, defendant claims that, because the jury
found him not guilty of murder, they could not convict
him of felon in possession or felony firearm. Defendant
also argues that trial counsel provided ineffective assistance by failing to move for a directed verdict or a
new trial.
We review de novo a challenge to the sufficiency of
the evidence. People v Ericksen, 288 Mich App 192, 195;
793 NW2d 120 (2010). When determining whether the
prosecutor presented sufficient evidence to sustain a
conviction, we consider the evidence in a light most favorable to the prosecutor to ascertain whether a rational trier of fact could find the defendant guilty
beyond a reasonable doubt. People v Tennyson, 487
Mich 730, 735; 790 NW2d 354 (2010). Direct evidence
as well as circumstantial evidence and reasonable inferences arising therefrom can constitute satisfactory
proof of the elements of a crime. People v Nowack, 462
Mich 392, 400; 614 NW2d 78 (2000). It is for the jury
to determine witness credibility and to resolve any inconsistencies in the testimony; and, this Court will not
interfere with the jury’s role as fact-finder. People v
Harverson, 291 Mich App 171, 175, 179; 804 NW2d 757
(2010). Rather, “a reviewing court is required to draw
all reasonable inferences and make credibility choices

App. 90
in support of the jury verdict.” Nowack, 462 Mich at
400.
In this case, defendant does not dispute that he
was a felon ineligible to possess a firearm, and he does
not dispute that someone at the scene possessed a firearm. Instead, defendant essentially argues that there
was no evidence that he was identified as present during the crime or as being the person in possession of
the gun. Defendant is correct in his assertion that
identity is an element of every offense. People v Yost,
278 Mich App 341, 356; 749 NW2d 753 (2008). However, contrary to defendant’s arguments, there was sufficient evidence to establish his identity as the
individual in possession of a gun at the scene. Calais,
who was behind a turquoise car, saw an unidentified
man shooting a gun before running away. Loyd-Deal
stated that she saw defendant get out of a car that was
the same color as the one in front of Calais. Loyd-Deal
identified defendant as the man having a heated argument with Pruitt regarding Drain. And, most notably,
Loyd-Deal testified that, after she heard a shot fired,
she went to her window and she saw defendant shoot
Pruitt three times. Indeed, Loyd-Deal testified that she
saw defendant with a gun more than once during the
incident. Fuse testified that defendant called him a
couple days after Pruitt died and that, consistent with
Loyd-Deal’s description of events, defendant told Fuse
that he did something stupid and shot “someone” while
arguing with a man over a girl. Thus, it was reasonable
for the jury to conclude from the evidence presented
that defendant was at the scene and in possession of a

App. 91
gun. Although on appeal defendant highlights inconsistencies in the evidence and in Loyd-Deal’s testimony
in particular, these issues were for the jury to resolve.2
See Harverson, 291 Mich App at 175, 179. Viewed in a
light most favorable to the prosecution, the direct and
circumstantial evidence, as well as all reasonable inferences that may be drawn, was sufficient to support
defendant’s convictions beyond a reasonable doubt.
See Nowack, 462 Mich at 400.
Insofar as defendant asserts that trial counsel provided ineffective assistance by failing to move for a directed verdict or a new trial, his claims are without
merit. To establish a claim of ineffective assistance of
counsel a defendant must show “(1) that counsel’s representation fell below an objective standard of reasonableness, and (2) that there is a reasonable probability
that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different.” People v
2

There is also no merit to defendant’s assertion that his convictions were not supported by sufficient evidence simply because
the jury returned a not guilty verdict with respect to open murder.
Although it is not entirely clear from defendant’s argument, it appears to be his contention that there is some inconsistency in the
verdicts that renders his convictions infirm. But, even supposing
that there was some inconsistency in the verdicts, this would not
entitle defendant to relief because “inconsistent verdicts within a
single jury trial are permissible.” People v Wilson, 496 Mich 91,
100; 852 NW2d 134 (2014). Moreover, in this case, the jury’s verdicts are not necessarily inconsistent. The jury could have found
credible Loyd-Deal’s testimony that defendant was present with
a gun while at the same time they might have had reasonable
doubts about Loyd-Deal’s statement that she saw defendant shoot
Pruitt given that she also testified that she was in the kitchen on
the phone when she initially heard shots fired.

App. 92
Douglas, 496 Mich 557, 592; 852 NW2d 587 (2014)
(quotation marks and citations omitted). The effective
assistance of counsel is presumed, and the defendant
bears the heavy burden of proving otherwise. People v
Rodgers, 248 Mich App 702, 714; 645 NW2d 294 (2001).
Counsel is not considered ineffective for failing to
make meritless arguments or for failing to pursue a
futile motion. People v Riley, 468 Mich 135, 142; 659
NW2d 611 (2003); People v Ericksen, 288 Mich App 192,
201; 793 NW2d 120 (2010).
In this case, defendant argues that his trial counsel provided ineffective assistance because he did not
move for a directed verdict. However, such a motion
would have been futile because the evidence discussed
above, along with the physical evidence that Pruitt
died of a homicide after he was shot at close range, provided a basis for a reasonable juror to convict defendant of the crimes for which he was charged, including
murder. Counsel was not ineffective for failing to make
a futile motion. Riley, 468 Mich at 142.
Finally, defendant argues that the trial court
abused its discretion by admitting Loyd-Deal’s preliminary examination testimony and her 911 call at trial.3
3

Insofar as defendant challenges the admission of LoydDeal’s 911 call, defendant waived any error in this regard because
it was defense counsel who introduced Loyd-Deal’s 911 call into
evidence at trial. “Defendant may not assign error on appeal to
something that his own counsel deemed proper at trial.” People v
Barclay, 208 Mich App 670, 673; 528 NW2d 842 (1995). Further,
decisions regarding what evidence to present are matters of trial
strategy, People v Horn, 279 Mich App 31, 39; 755 NW2d 212
(2008), and it is clear that counsel was not ineffective for

App. 93
Specifically, defendant categorizes the evidence as inadmissible hearsay, he contends that Loyd-Deal was
lacking the requisite mental capacity when she testified at the preliminary examination due to her poor
health and, relying on MRE 403, defendant contends
that this evidence was irrelevant and unfairly prejudicial. Defendant also argues that his trial counsel was
ineffective in failing to object to the admission of this
evidence or to file a motion in limine for the exclusion
of this evidence.
We review a trial court’s decision to admit evidence for an abuse of discretion. People v Duncan, 494
Mich 713, 722; 835 NW2d 399 (2013). “A trial court
abuses its discretion when its decision falls outside the
range of reasonable and principled outcomes.” Id. at
722-723. Preliminary questions of law, including
whether a rule of evidence precludes admissibility of
evidence, are reviewed de novo. People v Lukity, 460
Mich 484, 488; 596 NW2d 607 (1999). A court necessarily abuses its discretion when it admits evidence
that is inadmissible as a matter of law. Id.
In this case, contrary to defendant’s arguments,
Loyd-Deal’s testimony was plainly relevant. She was
present at the scene, she observed defendant with a
gun, and she testified that she saw defendant shoot
introducing this evidence because counsel used the 911 call to discredit Loyd-Deal’s testimony by asserting that she did not identify defendant during the 911 call as the shooter when events
were “still fresh in her mind” and that she instead “developed the
story about [defendant] after the fact.” We need not consider the
911 call further.

App. 94
Pruitt three times. Her testimony thus constituted evidence making it more probable that defendant was in
possession of a gun and that he killed Pruitt. Because
Loyd-Deal’s testimony was relevant to facts of consequence, it was generally admissible. See MRE 401;
MRE 402. Further, although Loyd-Deal’s preliminary
examination testimony constituted hearsay, see MRE
801, it was nonetheless admissible because Loyd-Deal
was unavailable at trial and she testified at the preliminary examination, during which defendant had an
opportunity and similar motive to develop her testimony on cross examination. See MRE 804(a)(4); MRE
804(b)(1).
Nonetheless, defendant claims Loyd-Deal’s testimony was inadmissible because she was mentally incompetent. In support of this argument, defendant
notes that Loyd-Deal testified during the preliminary
examination from a hospital bed in the courtroom. Although it would appear that Loyd-Deal was in poor
physical health at the time of the examination, and in
fact died shortly thereafter, it is nonetheless true that
“a witness is presumed to be competent to testify.” People v Flowers, 222 Mich App 732, 737-738; 565 NW2d
12 (1997). Under MRE 601, “[u]nless the court finds after questioning a person that the person does not have
sufficient physical or mental capacity or sense of obligation to testify truthfully and understandably, every
person is competent to be a witness except as otherwise provided in these rules.” See also People v Breck,
230 Mich App 450, 457; 584 NW2d 602 (1998). There is
no indication that Loyd-Deal lacked this capacity and

App. 95
the mere fact of her poor health does not, on its own,
render her incompetent within the meaning of MRE
601.4
In addition, defendant argues that her testimony
should have been excluded because it was unduly prejudicial and confusing. Even if relevant, evidence may
be excluded if its probative value is substantially outweighed by the danger of unfair prejudice, confusion of
the issues, misleading the jury, undue delay, waste of
time, or needless presentation of cumulative evidence.
MRE 403. See also People v Musser, 494 Mich 337, 356;
835 NW2d 319 (2013). Unfair prejudice exists when
there is a tendency that the marginally probative evidence will be given undue or preemptive weight by the
jury. People v Mardlin, 487 Mich 609, 627; 790 NW2d
607 (2010). We have no such concerns in the present
case. Here, the testimony had significant probative
value as substantive evidence of the crimes for which
defendant was charged. It was certainly prejudicial to
the extent that the jury could have relied on it to identify defendant as the perpetrator of the crimes; but, in
this regard, “[a]ll relevant evidence is prejudicial,” and
4

Insofar as defendant claims counsel should have objected
to Loyd-Deal’s testimony on this basis, we note that it is defendant’s burden to establish the factual predicate for his claim. People v Carbin, 463 Mich 590, 600; 623 NW2d 884 (2001). Without
evidence to support the assertion that Loyd-Deal was incompetent within the meaning of MRE 601, there is no factual support
for defendant’s claim that counsel provided ineffective assistance
of counsel by failing to object to her testimony on this basis. Thus,
defendant’s ineffective assistance of counsel claim must fail. See
Carbin, 463 Mich at 600-601.

App. 96
we see nothing unfairly prejudicial in this evidence
which would require its exclusion. See People v
McGhee, 268 Mich App 600, 613-614; 709 NW2d 595
(2005). Nor can we discern any basis for concluding
that the evidence was so confusing as to substantially
outweigh the significant probative value of the evidence. Consequently, the trial court did not abuse its
discretion by admitting Loyd-Deal’s testimony.
Having concluded that the trial court did not
abuse its discretion by admitting Loyd-Deal’s testimony, we also reject defendant’s assertion that his trial
counsel was ineffective for failing to object to the admission of this testimony based on the various reasons
asserted by defendant on appeal. First, the decision to
object is typically considered a matter of trial strategy,
People v Matuszak, 263 Mich App 42, 58; 687 NW2d
342 (2004), and in this case the record shows that counsel did raise objections to portions of Loyd-Deal’s testimony and that counsel succeeded in having some of her
testimony redacted before it was presented to the jury.
Second, overall, the testimony that was ultimately admitted was admissible for the reasons discussed supra
and counsel cannot be considered ineffective for failing
to make meritless objections or for failing to pursue a
futile motion in limine. See Riley, 468 Mich at 142; Ericksen, 288 Mich App at 201.

App. 97
We affirm defendant’s convictions, but remand for
further proceedings consistent with this opinion. We do
not retain jurisdiction.
/s/ Mark T. Boonstra
/s/ Henry William Saad
/s/ Joel P. Hoekstra

